<html>
<title> - ELECTROMAGNETIC PULSE (EMP): THREAT TO CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     ELECTROMAGNETIC PULSE (EMP): THREAT TO CRITICAL INFRASTRUCTURE

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,

                       INFRASTRUCTURE PROTECTION,

                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2014

                               __________

                           Serial No. 113-68

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
89-763                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                 Patrick Meehan, Pennsylvania, Chairman
Mike Rogers, Alabama                 Yvette D. Clarke, New York
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Filemon Vela, Texas
Steve Daines, Montana                Vacancy
Scott Perry, Pennsylvania, Vice      Bennie G. Thompson, Mississippi 
    Chair                                (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Alex Manning, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Vice Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6
The Honorable Pete Sessions, a Representative in Congress From 
  the State of Texas:
  Prepared Statement.............................................    10

                               WITNESSES
                                Panel I

Hon. Trent Franks, A Representative in Congress From the State of 
  Arizona:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                                Panel II

Mr. Peter Vincent Pry, Congressional EMP Commission, 
  Congressional Strategic Posture Commission, and Executive 
  Director of the Task Force on National and Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Michael J. Frankel, Senior Scientist, Penn State University, 
  Applied Research Laboratory:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Chris Beck, Vice President, Policy and Strategic Initiatives, 
  The Electric Infrastructure Security Council:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25


     ELECTROMAGNETIC PULSE (EMP): THREAT TO CRITICAL INFRASTRUCTURE

                              ----------                              


                         Thursday, May 8, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 311, Cannon House Office Building, Hon. Scott Perry 
presiding.
    Present: Representatives Perry, McCaul (ex officio), 
Clarke, and Vela.
    Also present: Representative Franks.
    Mr. Perry. Ladies and gentlemen, the Committee on Homeland 
Security, Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies will come to order. The 
subcommittee is meeting today to examine the threats to 
critical infrastructure posed by electromagnetic pulse, or EMP.
    Before we begin today's hearing, I ask unanimous consent 
that Congressman Franks be permitted to participate in today's 
hearing, and, without objection, so ordered.
    At this time I would like to recognize the Chairman for a 
brief set of opening remarks.
    Mr. McCaul. I thank the Chairman and Mr. Perry for his 
leadership in chairing this committee hearing, Ms. Clarke as 
well. I just got back from the World War II memorial service. I 
spoke, talked about my father, who was a World War II veteran, 
bombardier. I mention that not to talk about my dad, but 
because this issue really goes back to the advent of the 
nuclear age, and it is an issue that the American people really 
don't know much about. They are not familiar with this issue.
    Some would say it is a low probability, but the damage that 
could be caused in the event of an EMP attack both by the sun, 
a solar event, or a man-made attack would be catastrophic. We 
talk a lot about a nuclear bomb in Manhattan, and we talk about 
a cybersecurity threat, the grid, power grid, in the Northeast, 
and all these things would actually probably pale in comparison 
to the devastation that an EMP attack could perpetrate on 
Americans.
    We have extraordinary capability in this country to do 
great things. We are a responsible Nation with our power and 
with our might. But a nation, a rogue nation, with that type of 
capability in the wrong hands could be devastating.
    Again, I want to commend the Chairman. I want to commend 
Congressman Franks for his leadership. I don't think any Member 
of Congress knows this issue more than he does, and I know your 
testimony in the record will be very valuable as we look at 
developing legislation to deal with this very critical and 
important issue to our National security.
    With that, Mr. Chairman. I yield back.
    Mr. Perry. Thank you, Mr. Chairman.
    I recognize myself at this time for an opening statement.
    I would like to thank everyone for attending today. 
Chairman Meehan is unable to attend, but as Vice Chairman of 
this subcommittee, I am honored and privileged and pleased to 
chair this important hearing on the threat and consequences to 
our Nation's critical infrastructure from electromagnetic 
pulse, EMP.
    In 1962, the United States conducted a test named STARFISH 
Prime where the military detonated a 1.4-megaton thermonuclear 
bomb about 25 miles above Johnston Atoll in the in the Pacific. 
In space, six American, British, and Soviet satellites suffered 
damage, and 800 miles away in Hawaii, burglar alarms sounded, 
street lights blinked out, and phones, radios, and televisions 
went dead. While only 1 percent of the existing street lights 
were affected, it became clear that electromagnetic pulse, or 
EMP, could cause significant damage.
    EMP is simply a burst of electromagnetic radiation that 
results from certain types of high-energy explosions or from a 
suddenly fluctuating magnetic field. A frightening point is 
that EMP can be generated by nuclear weapons, from naturally-
occurring sources such as solar storms, or specialized non-
nuclear EMP weapons.
    Nuclear weapon EMPs are most catastrophic when a nuclear 
weapon is detonated at a high altitude at approximately 30 
kilometers, or 20 miles, above the intended target. The 
consequences of such an attack could be catastrophic. All 
electronics, I mention all electronics, power systems, and 
information systems could be shut down. This could then cascade 
into interdependent infrastructure such as water, gas, and 
telecommunications. While we understand that this is an extreme 
case, we must always be prepared in case a rogue state decides 
to utilize this technology.
    Now, currently the nations of Russia and China have the 
technology to launch an EMP attack, and we have speculated that 
Iran and North Korea may be developing EMP weapon technology. 
This is why we must remain vigilant in our efforts to mitigate 
the effects of an EMP attack.
    Since most critical infrastructure, particularly electrical 
infrastructure, is in the hands of private owners, the Federal 
Government has limited authority to mandate preparedness. While 
some people criticize the lack of DHS action on compelling the 
private sector to harden their systems against EMP, it is 
important to note that DHS has no statutory authority 
whatsoever to regulate the electric grid. My hope is that this 
hearing will be successful in educating the public on the 
threat of EMP and will alleviate some of the fears that people 
have on EMP attacks.
    I thank the witnesses at this time for their time and look 
forward to their testimony.
    [The statement of Vice Chairman Perry follows:]
                 Statement of Vice Chairman Scott Perry
    I would like to thank everyone for attending today. Chairman Meehan 
is unable to attend but as Vice Chairman of this subcommittee, I am 
honored and pleased to chair this important hearing on the threat and 
consequences to our Nation's critical infrastructure from 
Electromagnetic Pulse (EMP).
    In 1962 the United States conducted a test named STARFISH PRIME, 
where the military detonated a 1.4 megaton thermonuclear bomb about 25 
miles above Johnston Atoll in the Pacific. In space, six American, 
British, and Soviet satellites suffered damage and 800 miles away in 
Hawaii, burglar alarms sounded, street lights blinked out, and phones, 
radios, and televisions went dead. While only 1% of the existing street 
lights were affected, it became clear that electromagnetic pulse, or 
EMP, could cause significant damage.
    EMP is simply a burst of electromagnetic radiation that results 
from certain types of high-energy explosions or from a suddenly 
fluctuating magnetic field. A frightening point is that EMP can be 
generated by nuclear weapons, from naturally-occurring sources such as 
solar storms, or specialized non-nuclear EMP weapons. Nuclear weapon 
EMPs are most catastrophic when a nuclear weapon is detonated at high 
altitude, at approximately 30 kilometers (20 miles), above the intended 
target. The consequences of such an attack could be catastrophic; all 
electronics, power systems, and information systems could be shut down. 
This could then cascade into interdependent infrastructures such as 
water, gas, and telecommunications. While we understand this is an 
extreme case, we must always be prepared in case a rouge state decides 
to utilize this technology.
    Currently, the nations of Russia and China have the technology to 
launch an EMP attack, and we have speculated that Iran and North Korea 
may be developing EMP weapon technology. This is why we must remain 
vigilant in our efforts to mitigate the effects of an EMP attack. Since 
most critical infrastructure, particularly electrical infrastructure, 
is in the hands of private owners, the Federal Government has limited 
authority to mandate preparedness. While some people criticize the lack 
of DRS action on compelling the private sector to harden their systems 
against EMP, it is important to note that DRS has no statutory 
authority whatsoever to regulate the electric grid.
    My hope is that this hearing will be successful in educating the 
public on the threat of EMP and will alleviate some of the fears that 
people have on EMP attacks. I thank the witnesses for their time and 
look forward to their testimony.

    Mr. Perry. At this time the Chairman now recognizes the 
Ranking Member of the subcommittee, the gentlelady from New 
York, Ms. Clarke for a statement she may have.
    Ms. Clarke. Thank you, Mr. Vice Chairman, and welcome to 
the gavel, and thank you for chairing this hearing on 
electromagnetic pulse and the threat to our critical 
infrastructure today.
    I, too, want to extend a warm welcome in return to our 
colleague Congressman Franks to our subcommittee. I believe 
that the last time you testified before us was back in 2012. 
Congressman Franks and I co-chaired the EMP Caucus here in 
Congress. Though we are from different ends of the continent, 
we share a concern about the vulnerability and resiliency of 
our Nation's critical infrastructure.
    I also want to welcome back Dr. Chris Beck, who will appear 
on Panel II. He was my past subcommittee director, and it is 
good to see.
    I am very interested in the testimony today and hoping to 
hear about how we can assess the risk of solar geomagnetic 
storms and other EMP threats that create vulnerabilities for 
our critical infrastructure. Since we know the electric grid is 
vulnerable to physical natural threats like heavy weather, EMPs 
from solar weather, and malicious cyber threats, it is 
important for the subcommittee to have a fuller understanding 
of the threats.
    As I see it, the main risk from a terrorist attack 
succeeding against the electric power industry would be a 
widespread power outage that lasted for an extended period of 
time. The most critical components of the transmission system 
are the high-voltage and extra-high-voltage transformers, or 
EHVs, but we must not forget the other major components of the 
electric transmission system that are vulnerable to terrorist 
attack: The transmission lines, transmission towers, and 
control centers.
    Utilities rarely experience loss of an individual EHV 
transformer, but recovery from such a loss takes months, 
especially if no spare is available. Conversely, utilities 
regularly experience damage to transmission towers and 
substations due to weather and malicious activities and are 
able to recover from this damage fairly rapidly.
    Experts generally agree that a failure, for whatever 
reason, involving several key EHV transformers could cause 
blackouts lasting weeks and deteriorated service for an area 
that could last months, and that the economic consequences of 
such an attack would likely be large.
    We also know that public-private partnerships are the 
keystone to solving this challenge, especially because the 
large majority of our electric grid is privately held by 
investor-owned utilities, or they are part of the rural 
electric cooperatives network, utilities owned by their member 
customers in 47 States, or the public power municipal 
utilities.
    The Electric Power Research Institute, or EPRI, an 
industry-funded energy research consortium, is also addressing 
high-voltage transformer vulnerabilities, and in cooperation 
with the North American Electric Reliability Corporation, EPRI 
has been developing conceptual designs for recovery 
transformers which would enable rapid temporary replacement of 
damaged high-voltage transformers. High-voltage and extra-high-
voltage transformers are very large, extremely difficult to 
transport, and, until 2009, primarily manufactured overseas, 
complicating rapid recovery and restoration efforts.
    The Department of Homeland Security has a variety of 
efforts for EMP and all-hazards risks including research on 
technologies to improve resiliency in the electric grid 
corridor. The DHS Science and Technology Directorate has co-
sponsored with private utilities an exercise and a fast 
turnaround transformer replacement project. This effort is 
known as the Recovery Transformer Project, or RecX, and it 
hopes to increase the resiliency of the transmission power grid 
through the use of more mobile and modular transformers.
    This applied research effort has developed a prototype EHV 
transformer that can quickly be deployed to a site via a series 
of large trucks and trailers and then installed, assembled, and 
energized rapidly. The prototype RecX was demonstrated last 
year and installed in the grid at a host utility, and it is 
currently undergoing a 1-year observational period to verify 
its performance.
    However, within DHS, identifying specific EMP-threat-
related programs in their budgets is difficult because EMP-
specific preparedness and response is not the primary purpose 
of most programs generally characterized as all-hazards 
threats. Some see this as a problem; however, under the current 
sequester budgetary constraints, funding sources for mitigation 
and response preparedness for low-probability risk compete 
directly with today's on-the-ground first-responder needs.
    Unfortunately EMP events of all sorts have become the 
darling of the internet and late-night talk radio, forecasting 
``the end of civilization as we know it'' conditions. They 
include all kinds of lurid descriptions of hypothetical 
catastrophic social events that will, without any doubt in 
their minds, occur when an EMP event happens, according to 
these soothsayers. It can be disturbing.
    EMP-related events have even been popularized in 
melodramatic TV shows. Books of science fiction have 
popularized EMP end-of-day scenarios; and, of course, the 
internet has innumerable EMP sites that tout the devastation to 
come.
    Since I have been on this committee, I and others have been 
careful not to use our positions of influence to promote fear 
in the public. While the threat of an EMP event is real, I 
believe we need to use scientific, risk-based, and, frankly, 
common-sense plans and exercises to give us a clearer picture 
of how to prevent and respond in the event of an EMP incident. 
More complete understanding of preparedness, response, and 
recovery activities related to any type of EMP incident could 
provide a thoughtful background that can assist the Nation's 
resiliency if high-impact EMP events do occur.
    I look forward to the testimony today, and I yield back the 
balance of my time.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                              May 8, 2014
    I'm very interested in the testimony today, and hoping to hear 
about how we can assess the risk of solar geomagnetic storms and other 
EMP threats that create vulnerabilities for our critical 
infrastructure.
    Since we know the electric grid is vulnerable to physical natural 
threats like heavy weather, EMPs from solar weather, and malicious 
cyber threats, it is important for the subcommittee to have a fuller 
understanding of the threats.
    As I see it, the main risk from a terrorist attack succeeding 
against the electric power industry would be a widespread power outage 
that lasted for an extended period of time.
    The most critical components of the transmission system are the 
High-Voltage and Extra-High-Voltage transformers, or EHVs. But we must 
not forget the other major components of the electric transmission 
system that are vulnerable to terrorist attack--the transmission lines, 
transmission towers, and control centers.
    Utilities rarely experience loss of an individual EHV transformer, 
but recovery from such a loss takes months, especially if no spare is 
available.
    Conversely, utilities regularly experience damage to transmission 
towers and substations due to both weather and malicious activities, 
and are able to recover from this damage fairly rapidly.
    Experts generally agree that a failure, for whatever reason, 
involving several key EHV transformers, could cause blackouts lasting 
weeks and deteriorated service for an area that could last months, and 
that the economic consequences of such an attack would likely be large.
    We also know that public/private partnerships are the keystone to 
solving this challenge, especially because the large majority of our 
electric grid is privately held by investor-owned utilities, or they 
are part of the Rural Electric Cooperatives network, utilities owned by 
their member-customers in 47 States, or the Public Power municipal 
utilities.
    The Electric Power Research Institute, or EPRI, an industry-funded 
energy research consortium, is also addressing High-Voltage transformer 
vulnerabilities, and in cooperation with the North American Electric 
Reliability Corporation, EPRI has been developing conceptual designs 
for ``recovery transformers'' which would enable rapid temporary 
replacement of damaged High-Voltage transformers.
    High-Voltage and Extra-High-Voltage transformers are very large, 
extremely difficult to transport, and until 2009 primarily manufactured 
overseas, complicating rapid recovery and restoration efforts.
    The Department of Homeland Security has a variety of efforts for 
EMP and ``all-hazards risks'', including research on technologies to 
improve resiliency in the electric grid sector.
    The DHS Science & Technology Directorate has co-sponsored with 
private utilities an exercise in a fast turnaround transformer 
replacement project.
    This effort is known as the Recovery Transformer Project, or RecX, 
and it hopes to increase the resiliency of the transmission power grid 
through the use of more mobile and modular transformers.
    This applied research effort has developed a prototype EHV 
transformer that can quickly be deployed to a site via a series of 
large trucks and trailers, and then installed, assembled, and energized 
rapidly.
    The prototype RecX was demonstrated last year, and installed in the 
grid at a host utility, and it is currently undergoing a 1-year 
observational period to verify its performance.
    However, within DHS, identifying specific EMP threat-related 
programs and their budgets is difficult, because EMP-specific 
preparedness and response is not the primary purpose of most programs 
generally characterized as ``all-hazards threats.'' Some see this as a 
problem.
    However, under the current sequester budgetary constraints, funding 
sources for mitigation and response preparedness for low probability 
risks, compete directly with today's on-the-ground first responder 
needs.
    Unfortunately, EMP events of all sorts have become the darling of 
the internet and late-night talk radio forecasting ``end of 
civilization as we know it'' conditions.
    They include all kinds of lurid descriptions of hypothetical 
catastrophic social events that will, without any doubt in their minds, 
occur when an EMP event happens, according to these soothsayers.
    It can be disturbing. EMP related events have even been popularized 
in melodramatic TV shows. Books of science fiction have popularized EMP 
end-of-days scenarios, and of course, the internet has innumerable EMP 
sites that tout the devastation to come.
    Since I have been on this committee, I, and others, have been 
careful not to use our positions of influence to promote fear in the 
public.
    While the threat of an EMP event is real, I believe we need to use 
scientific, risk-based, and frankly, common-sense plans and exercises 
to give us a clearer picture of how to prevent and respond in the event 
of an EMP incident.
    A more complete understanding of preparedness, response, and 
recovery activities related to any type of EMP incident, could provide 
a thoughtful background that can assist the Nation's resiliency, if 
high-impact EMP events do occur.

    Mr. Perry. The Vice Chairman thanks the Ranking Member.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Scientists tell us that it is likely that a powerful geomagnetic 
solar storm, capable of affecting parts of the U.S. and Canadian 
electrical grid could occur. When it will occur, we are not quite sure.
    What we do know is that last year, 2013 was forecasted as the next 
period of elevated solar activity, known as ``solar maximum'', and we 
are in a high-activity part of a cyclical process.
    The popularity of an EMP event occurring in the United States has 
taken on the dimensions of a doomsday--end of civilization as we know 
it--scenario, and it includes all sorts of catastrophic events 
surrounding possible solar storms, and other kinds of EMP attacks.
    These stories are rampant throughout current media--fiction books 
have been popularized about it, the internet has innumerable sites that 
tout the devastation to come, and it is the subject of late-night talk 
radio regularly.
    Since I have been on this committee, I have urged my colleagues not 
to use our positions of influence to promote fear in the public.
    While the threat of an EMP event is real, I believe we need to use 
common-sense, risk-based scenarios and exercises to give us a picture 
of how to prevent or respond to an EMP event.
    Many blame the current administration for their frustrations about 
EMP. However, no one from the Federal Government is here today to 
testify about the issue.
    Today, we will not hear from Government specialists and experts 
from the Department of Energy or Homeland Security on this issue.
    It is the responsibility of this committee to know the probability 
of such an event, and the likelihood and severity of the effects on the 
electric grid and other critical infrastructure.
    What's important to me is that in this time of increasingly tight 
budgets, and the current sequester budget for homeland security, we 
must depend on sophisticated risk analysis to guide us in making the 
tough decisions about our spending priorities.
    Furthermore, we need to explore how we can leverage this risk 
analysis to sensibly prioritize our spending and especially make use of 
the existing public/private partnerships to deal with such a threat.

    Mr. Perry. We are pleased to have two distinguished panels 
of witness before us today on this important topic. The 
Honorable Trent Franks represents Arizona's Eighth 
Congressional District, serving in Congress since 2003. Prior 
to coming to Washington, Representative Franks was president of 
Liberty Petroleum Corporation, a small oil exploration company 
established in 1996. He had previously held positions in the 
Arizona State Legislature and in the Governor's Office for 
Children.
    Since coming to Congress, Representative Franks has been an 
advocate for robust preparation against a potential EMP event, 
natural or man-made. He launched the Congressional EMP Caucus 
and has pushed for passage of the Secure High-Voltage 
Infrastructure for Electricity from Lethal Damage Act, or the 
SHIELD Act.
    Thanks for being here. Your full written statement will 
appear in the record. The Chairman now recognizes Mr. Franks 
for his testimony.

 STATEMENT OF HON. TRENT FRANKS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Franks. Good afternoon, Chairman Perry, and Ranking 
Member Clarke, and fellow distinguished Members on the 
committee. I believe the subject of this hearing today is one 
of profound implication and importance to our country, and I am 
very grateful to you for allowing me to testify.
    Mr. Chairman and Members of the committee, America is so 
reliant on our electric grid that we specifically consider it, 
``critical infrastructure.'' With each passing year our society 
becomes increasingly dependent on technology and an abundant 
supply of electricity. Our household appliances, food-
distribution systems, telephone and computer networks, our 
communication devices, water and sewage plants would all grind 
to a halt without electric power.
    At the same time, the use of modern computerized control 
systems along with the increased size and integration of our 
grid has made it far more vulnerable to electromagnetic pulse 
or geomagnetic disturbance than ever before. Consequently, 
nearly every single facet of modern human life in America is 
now susceptible to being crippled by a major natural or man-
made EMP event, and nearly every space, weather, and EMP expert 
recognizes the dramatic disruptions and cataclysmic collapses 
these pulses can potentially bring to electric grids.
    In 2004 and 2008, the EMP Commission, which some of the 
members of that will be here today, testified before those of 
us on the Armed Services Committee that the U.S. society and 
economy are so critically dependent upon the availability of 
electricity that a significant collapse of the grid 
precipitated by a major natural or man-made event, EMP or 
otherwise, could result in catastrophic civilian casualties. 
Let me say that again. Could result in catastrophic civilian 
casualties. That conclusion is echoed by separate reports 
recently compiled by the Department of Defense, Department of 
Homeland Security, Department of Energy, the National Academy 
of Sciences, along with various other Government agencies and 
independent researchers.
    We now have 11 Governmental agencies' studies on the severe 
threat and vulnerabilities we face from EMP and GMD, all of 
which came to very similar conclusions. In fact, you should 
have in front of you booklets both from the Center for Security 
Policy and the Heritage Foundation that give some insight into 
some of these studies.
    We as a Nation have spent billions of dollars over several 
decades hardening our nuclear triad, our missile defense 
capabilities, and numerous other critical elements of our 
National security apparatus against the effects of 
electromagnetic pulse, particularly the type of electromagnetic 
pulse that might be deliberately generated against us by an 
enemy; however, our civilian grid upon which the Department of 
Defense relies upon for nearly 99 percent of its electricity 
needs, is completely vulnerable to the same kind of danger. Mr. 
Chairman, our enemies are actually and acutely aware of that 
vulnerability, and it constitutes, in my opinion, an invitation 
to them to use the asymmetric capacity of an EMP weapon against 
us should they choose to do so.
    To address this National security threat, Chairman Pete 
Sessions and I have introduced the Critical Infrastructure 
Protection Act, H.R. 3410, which is now before your committee, 
and we would like to specifically thank Ranking Member Yvette 
Clarke for co-sponsoring this critical legislation. H.R. 3410 
enhances the Department of Homeland Security's threat 
assessments for geomagnetic disturbances and electromagnetic 
pulse blackouts, which will enable practical steps to protect 
the electric grid that serves our Nation. This legislation will 
also help the United States prepare for such an event by 
including potential large-scale extended blackouts into 
existing National planning scenarios. It allows us to plan for 
protecting and recovering the electric grid and other critical 
infrastructure from an EMP event. Perhaps most importantly, Mr. 
Chairman, it advances an awareness program to educate and, I 
hope, motivate all of us inside and outside of Government to 
proactively protect against this potentially devastating danger 
to our country.
    In closing, Mr. Chairman, let me suggest to you all that 
there is a moment in the life of nearly every problem when it 
is big enough to be seen and still small enough to be 
addressed. I believe we now live in that moment as it relates 
to the threat of natural or weaponized EMP.
    The challenge to ultimately and comprehensively protect our 
people and Nation from all of the various perils of natural or 
man-made EMP will be long and lingering, but the time to 
protect our Nation from the most devastating scenario is now. 
The threat is real, and the implications are profoundly 
sobering. Your actions today to protect America may gain you no 
fame or fanfare in the annals of history; however, it may 
happen in your lifetime that a natural or man-made EMP event so 
big has an effect so small that no one but a few will recognize 
the disaster that was averted, and for the sake of our children 
and future generations, I pray it happens exactly that way.
    I thank you, and God bless you all.
    [The prepared statement of Mr. Franks follows:]
                     Statement of Hon. Trent Franks
    Good afternoon Chairman Perry, Ranking Member Clarke, and fellow 
distinguished Members on the committee. I believe the subject of this 
hearing is one of profound implication and importance and consequently 
I am grateful to you all for allowing me to testify here today.
    With each passing year, our society becomes increasingly dependent 
on technology and an abundant supply of electricity. Our entire 
American way of life relies upon electrical power and technology. Our 
household appliances, food-distribution systems, telephone and computer 
networks, communication devices, water and sewage plants would grind to 
a halt without it. Nearly every single facet of modern human life in 
America is susceptible to being crippled by a major Electromagnetic 
Pulse or Geomagnetic Disturbance event. We are so reliant on our 
electric power grid that we specifically consider it ``critical 
infrastructure''.
    Mr. Chairman and Members of the committee, it strikes at my very 
core when I think of the men, women, and children in cities and rural 
towns across America with a possibility of no access to food, water, or 
transportation. In a matter of weeks or months at most, a worst-case 
scenario could bring devastation beyond imagination.
    The effects of geomagnetic storms and electromagnetic pulses on 
electric infrastructure are well-documented, with nearly every space, 
weather, and EMP expert recognizing the dramatic disruptions and 
cataclysmic collapses these pulses can bring to electric grids. In 
2008, the EMP Commission testified before The Armed Services Committee, 
of which I am a member, that the U.S. society and economy are so 
critically dependent upon the availability of electricity that a 
significant collapse of the grid, precipitated by a major natural or 
man-made EMP event, could result in catastrophic civilian casualties. 
This conclusion is echoed by separate reports recently compiled by the 
DOD, DHS, DOE, NAS, along with various other Government agencies and 
independent researchers. All came to very similar conclusions. We now 
have 11 Government studies on the severe threat and vulnerabilities we 
face from EMP and GMD.
                             recent events
    Mr. Chairman, as you can see, we have known the potentially 
devastating effects of sufficiently intense electromagnetic pulse on 
the electronic systems and its risk to our National security. More 
troubling, our enemies know.
    More than a year ago, an unknown number of shooters with AK-47s 
knocked out 17 large transformers during a highly-choreographed assault 
on the PG&E Metcalf Transmission Substation in California. While the 
power company was able to avoid blackouts, the damage to the facility 
took nearly 4 weeks to repair.
    This is not an isolated incident and world-wide adversaries are 
taking notice in the vulnerability of our grid. Just last month, 
Connecticut officials released a report discussing their efforts to 
protect utility and distribution companies because hackers and cyber 
attackers around the world have made attempts to penetrate their 
systems.
                              the threats
    We as a Nation have spent billions of dollars over the years 
hardening our nuclear triad, our missile-defense capabilities, and 
numerous other critical elements of our National security apparatus 
against the effects of electromagnetic pulse, particularly the type of 
electromagnetic pulse that might be generated against us by an enemy. 
However, our civilian grid, which the Defense Department relies upon 
for nearly 99% of its electricity needs, is completely vulnerable to 
the same kind of danger. This constitutes an invitation on the part of 
certain enemies of the United States to use the asymmetric capability 
of an EMP weapon against us.
    We also face the threat of a natural EMP event. Since the last 
occurrence of a major geomagnetic storm in 1921, the Nation's high-
voltage and extra-high-voltage systems have increased in size more than 
ten-fold. We are currently entering an interval of increased solar 
activity and are likely to encounter an increasing number of 
geomagnetic events on earth.
                              legislation
    To this end, I introduced The Critical Infrastructure Protection 
Act, H.R. 3410, which currently lays before your committee. I'd like to 
thank Ranking Member Clarke, and my EMP Caucus co-chair for 
cosponsoring this critical legislation. H.R. 3410 enhances the 
Department of Homeland Security's threat assessments for geomagnetic 
disturbances and electromagnetic pulse blackouts which will enable 
practical steps to protect the electric grid that serves our Nation. 
This legislation will also help the United States prepare for such an 
event by implementing large-scale blackouts into existing National 
planning scenarios. It allows us to plan for protecting and recovering 
the electric grid and other critical infrastructure from an EMP event. 
In addition, it advances an educational awareness program to protect 
critical infrastructure and constructs a campaign to proactively 
educate emergency planners and emergency responders at all levels of 
government.
                                summary
    Mr. Chairman, the challenge to ultimately and fully protect our 
people and Nation from all of the various perils of natural or man-made 
electromagnetic pulse will be long and lingering. But the time to 
protect our Nation from the most devastating scenario is now; the 
threat is real, and the implications are sobering.
    Your actions today to protect America may gain you no fame or 
fanfare in the annals of history. However, it may happen in your 
lifetime that a natural or man-made EMP event so big has an effect so 
small that no one but a few will recognize the disaster that was 
averted. For the sake of our children and future generations, I pray it 
happens exactly that way.
    Thank you and God bless all of you. Thank you and I yield back the 
balance of my time.

    Mr. Perry. The Chairman thanks Representative Franks and 
welcomes you to the dais at this time.
    Mr. Franks. Were there any questions, Mr. Chairman?
    Mr. Perry. Are there any questions, Ms. Clarke? We don't 
have any questions at this point.
    Mr. Franks. I would then also refer you once again to the 
materials that we brought to the committee.
    Mr. Perry. Absolutely. If the other panel will be seated. 
While they are doing so, I ask unanimous consent to enter into 
the record a statement by Rules Committee Chairman Pete 
Sessions, who wanted to attend this hearing today, but was 
delayed on the floor. Without objection.
    [The statement of Mr. Sessions follows:]
                    Statement of Hon. Pete Sessions
    Last month's anniversary of the attacks on the Metcalf Power 
Station remind us that attacks on key elements of the Nation's bulk 
power distribution system--popularly known as the ``electric grid''--
have exposed a serious lack of resiliency in this critical 
infrastructure. We are on notice that, if as a result, the power was to 
be disrupted for protracted periods; the consequences could be nothing 
short of catastrophic.
    Mr. Chairman, I thank you and the subcommittee for holding this 
hearing to address what is arguably the most serious of the threats to 
the grid: The possibility that a single nuclear weapon detonated in 
space high over this country could unleash intense electromagnetic 
pulses (EMP), disrupting for many months--if not indefinitely--the 
supply of power to large area.
    Until recently, information about EMP was Classified and many of us 
have little knowledge of the serious danger such threats represents to 
everything we hold dear.
    Unfortunately, even if those who wish to do this country harm know 
about our grid's vulnerability to EMP choose not to exploit it, the 
bulk power distribution system will be subjected to effects similar to 
what are known as the E-3 pulses caused by nuclear detonations in 
space.
    Roughly every 150 years, the sun emits in the earth's direction an 
intense coronal mass ejection, or solar flare, that can severely damage 
or destroy unprotected electronic devices and electric systems. Such 
solar storms are known as ``Carrington Events,'' named for the 
scientist who first identified the phenomenon when it last occurred in 
1859--155 years ago.
    Whatever its source, the consequences of such electromagnetic 
pulses could be devastating for many millions of people who would be 
left without access to potable water, food, bank accounts, medications, 
communications, transportation, and many other important 
electronically-based activities--possibly for the indefinite future.
    Dr. William Graham, the chairman of the EMP Threat Commission, 
believes that, if the power goes out and stays out for even 1 year's 
time, as many as 9 out of 10 of us would perish.
    Fortunately, Mr. Chairman, we need not face such a horrific 
prospect. We know how to protect electrical and electronic devices from 
the effects of EMP. In fact, the Department of Defense has been doing 
it with respect to the military's nuclear deterrent and command-and-
control systems for over 50 years.
    There are, in short, proven and easily implementable techniques 
that can now be applied to ensure the resilience ofthe U.S. electric 
grid and the things that depend upon it in 21st Century America--which 
is just about everything.
    A first step towards such corrective action would be for the 
adoption ofthe Critical Infrastructure Protection Act (CIPA), H.R. 
3410. It will require the Department of Homeland Security to make EMP 
one of its National planning scenarios. This legislation represents the 
first step toward raising awareness about the gravity of the threats to 
our grid and the other critical infrastructures that depend upon it.
    I commend the subcommittee for focusing on this potentially 
existential danger and urge your Members to give early and favorable 
consideration to the CIPA.

    Mr. Perry. Thank you, gentlemen. I will start with 
introductions.
    Dr. Peter Vincent Pry is the executive director of the Task 
Force on National and Homeland Security, a Congressional 
advisory board dedicated to achieving protection of the United 
States from electromagnetic pulse and other threats. Dr. Pry is 
also the director of the United States Nuclear Strategy Forum, 
an advisory body to Congress on policies to counter weapons of 
mass destruction. Dr. Pry has served on the staffs of the 
Congressional Commission on the Strategic Posture of the United 
States, the Commission to Assess the Threat to the U.S. from an 
EMP Attack, the House Armed Services Committee, as an 
intelligence officer with the CIA, and as a verification 
analyst at the U.S. Arms Control and Disarmament Agency.
    Dr. Michael Frankel is a senior scientist at the Penn 
State--and I must pause for a moment. We are, just in case you 
are wondering who I am, where I went to school--at the Penn 
State University Applied Physics Laboratory, and one of the 
Nation's leading experts on the effects of nuclear weapons. 
Formerly he served as the executive director of the 
Congressional Commission to Assess the Threat to the U.S. from 
EMP, and as the chief science officer for L-3 Communications. 
In prior Government service, Dr. Frankel served various 
National security capacities, including with the Office of 
Advanced Energetics and Nuclear Weapons at the Department of 
Defense, the Nuclear Phenomenology Division at the Defense 
Threat Reduction Agency, and as a research physicist at the 
Naval Surface Weapons Center. Also known for his expertise in 
directed energy and advanced energetic materials, he has made 
seminal contributions to key strategic defense programs and has 
been active in international scientific exchanges.
    Dr. Chris Beck is the vice president for policy and 
strategic initiatives for the Electric Infrastructure Security 
Council. Dr. Beck is a technical and policy expert in several 
homeland security and National defense-related areas, including 
critical infrastructure protection, science and technology 
development, WMD prevention and protection, and emerging threat 
identification. Dr. Beck served on the staff of the House 
Committee on Homeland Security, as well as a staffer for 
Congresswoman Loretta Sanchez. Before Government service, Dr. 
Beck was a post-doctoral fellow and adjunct professor at 
Northeastern University.
    Thank you all for being here. The full written statements 
of witnesses will appear in the record, and at this time the 
Chairman recognizes Dr. Pry for 5 minutes for his testimony.

 STATEMENT OF PETER VINCENT PRY, CONGRESSIONAL EMP COMMISSION, 
   CONGRESSIONAL STRATEGIC POSTURE COMMISSION, AND EXECUTIVE 
  DIRECTOR OF THE TASK FORCE ON NATIONAL AND HOMELAND SECURITY

    Mr. Pry. Thank you for this opportunity to testify at your 
hearing on the threat posed by electromagnetic pulse to 
critical infrastructure.
    Natural EMP from a geomagnetic super-storm like the 1859 
Carrington Event or the 1921 Railroad Storm, a nuclear EMP 
attack from terrorists or rogue states as practiced by North 
Korea during the nuclear crisis of 2013 are both existential 
threats that could kill 9 of 10 Americans through starvation, 
disease, and societal collapse.
    A natural EMP catastrophe or nuclear EMP attack could black 
out the National electric grid for months or years and collapse 
all the other critical infrastructures, communications, 
transportation, banking and finance, food and water, necessary 
to sustain modern society and the lives of 310 million 
Americans.
    Passage of the SHIELD Act to protect the National electric 
grid is urgently necessary. In 2010, after the House 
unanimously passed the GRID Act, if one Senator had not put a 
hold on the bill, today in 2014 the Nation would already be 
protected since it would take about 3\1/2\ years to harden the 
grid. Passage of the Critical Infrastructure Protection Act, 
H.R. 3410, to create a new National planning scenario focused 
on EMP is urgently necessary. As the National planning 
scenarios are the basis for all Federal, State, and local 
emergency planning, training, and resource allocation, an EMP 
National planning scenario would immediately and significantly 
improve National preparedness for an EMP catastrophe.
    The single most important thing Congress could do to 
protect the American people from EMP and from all the other 
threats to critical infrastructures is pass the Critical 
Infrastructure Protect Act, which bill is soon or will be 
before this committee for consideration.
    Thousands of emergency planners and first responders at the 
Federal, State, and local level want to protect our Nation and 
their States and communities from the EMP threat, but they are 
seriously hindered and even prohibited from doing so because 
the EMP threat is not among the 15 canonical National planning 
scenarios utilized by the Department of Homeland Security.
    Passage of the Critical Infrastructure Protection Act would 
immediately mobilize thousands of emergency planners and first 
responders at all levels of government and educate millions of 
others about the EMP threat and how to prepare for it.
    Passage of the Critical Infrastructure Protection Act would 
immediately help States that are frustrated with the lack of 
action on EMP in Washington and are trying to launch 
initiatives protecting their electrical grids from EMP, as is 
being attempted now in Maine, Virginia, Oklahoma, and Florida.
    Passage of the Critical Infrastructure Protection Act would 
educate all States about the EMP threat and help them protect 
their critical infrastructures. For example, projects in New 
York and Massachusetts to harden their State grids against 
severe weather caused by climate change should include 
protection against an EMP event, which is the worst threat to 
the grid. If the grid is protected against EMP, it will 
mitigate all lesser threats, including cyber attack, sabotage, 
and severe weather.
    Given the amounts of money being spent in New York and 
Massachusetts on grid hardening against severe weather, 
significant EMP protection can probably be accomplished now 
within their current budgets, but the cost of EMP protection 
will increase significantly if they delay and attempt 
remediation later.
    EMP is a clear and present danger. A Carrington-class 
coronal mass ejection narrowly missed the earth in July 2012. 
Last April, during the nuclear crisis with North Korea over Kim 
Jong-Un's threatened nuclear strikes against the United States, 
Pyongyang apparently practiced an EMP attack with its KSM-3 
satellite that passed over the U.S. heartland and over the 
Washington, D.C.-New York City corridor. Iran, estimated to be 
within 2 months of nuclear weapons by the administration, has a 
demonstrated capability to launch an EMP attack from a vessel 
at sea. The Iranian Revolutionary Guard Navy commenced patrols 
off the East Coast of the United States in February.
    Thank you for your attention to EMP, which is the least 
understood but gravest threat to our society. This concludes my 
remarks.
    [The prepared statement of Mr. Pry follows:]
                Prepared Statement of Peter Vincent Pry
                              May 8, 2014
    Thank you for this opportunity to testify at your hearing on the 
threat posed by electromagnetic pulse (EMP) to critical infrastructure.
    Natural EMP from a geomagnetic super-storm, like the 1859 
Carrington Event or 1921 Railroad Storm, and nuclear EMP attack from 
terrorists or rogue states, as practiced by North Korea during the 
nuclear crisis of 2013, are both existential threats that could kill 9 
of 10 Americans through starvation, disease, and societal collapse.
    A natural EMP catastrophe or nuclear EMP attack could blackout the 
National electric grid for months or years and collapse all the other 
critical infrastructures--communications, transportation, banking and 
finance, food and water--necessary to sustain modern society and the 
lives of 310 million Americans.
    Passage of the SHIELD Act to protect the National electric grid is 
urgently necessary. In 2010, after the House unanimously passed the 
GRID Act, if one Senator had not put a hold on the bill, today in 2014 
the Nation would already be protected, since it would take about 3.5 
years to harden the grid.
    Passage of the Critical Infrastructure Protection Act (CIPA) to 
create a new National Planning Scenario focused on EMP is urgently 
necessary. As the National Planning Scenarios are the basis for all 
Federal, State, and local emergency planning, training, and resource 
allocation, an EMP National Planning Scenario would immediately and 
significantly improve National preparedness for an EMP catastrophe.
    The single most important thing Congress could do to protect the 
American people from EMP, and from all other threats to critical 
infrastructures, is pass the Critical Infrastructure Protection Act, 
which bill is or soon will be before this committee for consideration.
    Thousands of emergency planners and first responders at the 
Federal, State, and local level want to protect our Nation and their 
States and communities from the EMP threat. But they are seriously 
hindered and even prohibited from doing so because the EMP threat is 
not among the 15 canonical National Planning Scenarios utilized by the 
Department of Homeland Security.
    Passage of the Critical Infrastructure Protection Act would 
immediately mobilize thousands of emergency planners and first 
responders at all levels of government, and educate millions of others, 
about the EMP threat and how to prepare for it.
    Passage of the Critical Infrastructure Protection Act would 
immediately help States that are frustrated with lack of action on EMP 
in Washington, and are trying to launch initiatives protecting their 
electrical grids from EMP, as is being attempted now in Maine, 
Virginia, Oklahoma, and Florida. Passage of the Critical Infrastructure 
Protection Act would educate all States about the EMP threat and help 
them protect their critical infrastructures.
    For example, projects in New York and Massachusetts to harden their 
State grids against severe weather caused by climate change should 
include protection against an EMP event, which is the worst threat to 
the grid. If the grid is protected against EMP, it will mitigate all 
lesser threats, including cyber attack, sabotage, and severe weather.
    Given the amounts of money being spent in New York and 
Massachusetts on grid hardening against severe weather, significant EMP 
protection can probably be accomplished now within their current 
budgets. But the cost of EMP protection will increase significantly if 
they delay and attempt remediation later.
    EMP is a clear and present danger. A Carrington-class coronal mass 
ejection narrowly missed the Earth in July 2012. Last April, during the 
nuclear crisis with North Korea over Kim Jong-Un's threatened nuclear 
strikes against the United States, Pyongyang apparently practiced an 
EMP attack with its KSM-3 satellite, that passed over the U.S. 
heartland and over the Washington, D.C.-New York City corridor. Iran, 
estimated to be within 2 months of nuclear weapons by the 
administration, has a demonstrated capability to launch an EMP attack 
from a vessel at sea. The Iranian Revolutionary Guard Navy commenced 
patrols off the East Coast of the United States in February.
    Thank you for your attention to EMP, which is the least understood 
but gravest threat to our society. This concludes my remarks.
                               Attachment
                              what is emp?
Nuclear, Natural, and Non-Nuclear EMP
    An electromagnetic pulse (EMP) is a super-energetic radio wave that 
can destroy, damage, or cause the malfunction of electronic systems by 
overloading their circuits. EMP is harmless to people biologically, 
passing through their bodies without injury, like a radio wave. But by 
damaging electronic systems that make modern society possible, that 
enable computers to function and airliners to fly for example, EMP can 
cause mass destruction of property and life.
    A single nuclear weapon detonated at high altitude will generate an 
electromagnetic pulse that can cause catastrophic damage across the 
entire contiguous United States to the critical infrastructures--
electric power, telecommunications, transportation, banking and 
finance, food and water--that sustain modern civilization and the lives 
of 310 million Americans. Nature can also generate an EMP causing 
similarly catastrophic consequences across the entire contiguous United 
States--or even across the entire planet--by means of a solar flare 
from the Sun that causes on Earth a great geomagnetic storm. Non-
nuclear weapons, often referred to as radio frequency weapons, can also 
generate an EMP, much more limited in range than a nuclear weapon, that 
can damage electronics, and could cause the collapse of critical 
infrastructures locally, perhaps with cascading effects over an area as 
large as a major city.
                              nuclear emp
    Any nuclear warhead detonated at high altitude, 30 kilometers or 
more above the Earth's surface, will generate an electromagnetic pulse. 
The immediate effects of EMP are disruption of, and damage to, 
electronic systems and electrical infrastructure. EMP is not reported 
in the scientific literature to have direct harmful effects on people. 
Because an EMP attack would detonate a nuclear warhead at high-
altitude, no other nuclear effects--such as blast, thermal radiation, 
or radioactive fallout--would be experienced by people on the ground or 
flying through the atmosphere. However, because modern civilization and 
life itself now depends upon electricity and electronics, an EMP attack 
is a high-tech means of killing millions of people the old-fashioned 
way--through starvation, disease, and societal collapse.
    Gamma rays, and the fireball from a high-altitude nuclear 
detonation, interact with the atmosphere to produce a super-energetic 
radio wave--the EMP--that covers everything within line-of-sight from 
the explosion to the Earth's horizon. Thus, even a relatively low-
altitude EMP attack, where the nuclear warhead is detonated at an 
altitude of 30 kilometers, will generate a damaging EMP field over a 
vast area, covering a region equivalent to New England, all of New 
York, and half of Pennsylvania. A nuclear weapon detonated at an 
altitude of 400 kilometers over the center of the United States would 
place an EMP field over the entire contiguous United States and parts 
of Canada and Mexico.
    The EMP generated by a nuclear weapon has three components, 
designated by the U.S. scientific-technical community E1, E2, and E3.
    E1 is caused by gamma rays, emitted by the nuclear warhead, that 
knocks electrons off of molecules in the upper atmosphere, causing the 
electrons to rotate rapidly around the lines of the Earth's magnetic 
field, a phenomenon termed the Compton Effect. The E1 component of 
nuclear EMP is a shockwave, transmitting thousands of volts of energy 
in mere nanoseconds of time, and having a high-frequency (short) 
wavelength that can couple directly into small objects, like personal 
computers, automobiles, and transformers. E1 is unique to nuclear 
weapons and is too fast and too energetic to be arrested by protective 
devices used for lightning.
    The E2 component of a nuclear EMP is comparable to lightning in its 
energetic content and medium (milliseconds) frequency and wavelength. 
Protective devices used for lightning are effective against E2.
    E3 is caused by the fireball of a nuclear explosion, the expanding 
and then collapsing fireball causing the Earth's magnetic field to 
oscillate, generating electric currents in the very large objects that 
can couple into the low frequency, long (seconds) wavelength part of 
the EMP that is E3. The E3 waveform can couple directly only into 
objects having at least one dimension of great length. Electric power 
and telecommunications lines, that run for kilometers in many 
directions, are ideally suited for receiving E3. Although E3 compared 
to E1 appears to deliver little energy, just volts per meter, this is 
multiplied manifold by power and telecommunications lines that are 
typically many kilometers long, building up E3 currents that can melt 
Extremely High-Voltage (EHV) transformers, typically designed to handle 
750,000 volts. Small electronics can also be destroyed by E3 if they 
are connected in any way to an E3 receiver--like a personal computer 
plugged into an electric outlet, which of course is connected to power 
lines that are ideal E3 receivers, or like the electronic servo-
mechanisms that operate the controls of large passenger airliners, that 
can receive E3 through the metal skin of the aircraft wings and body.
    Protective devices used for lightning are not effective against E3, 
that can build up energy sufficient to overwhelm lightning arrestors 
and bypass them through electrical arcing.
    EMP and its effects were observed during the U.S. and Soviet 
atmospheric test programs in 1962. The 1962 U.S. STARFISH nuclear 
detonation--not designed or intended as an EMP generator--at an 
altitude of about 400 kilometers above Johnston Island in the Pacific 
Ocean, surprised the U.S. scientific community by producing EMP. Some 
electronic systems in the Hawaiian Islands, 1,400 kilometers distant, 
were affected, causing the failure of street lights, tripping circuit 
breakers, triggering burglar alarms, and damage to telecommunications. 
In their testing that year, the Soviets executed a series of nuclear 
detonations in which they exploded 300 kiloton weapons at approximately 
300, 150, and 60 kilometers above their test site in South Central 
Asia. They report that on each shot they observed damage to overhead 
and underground buried cables at distances of 600 kilometers. They also 
observed surge arrestor burnout, spark-gap breakdown, blown fuses, and 
power supply breakdowns.
    In the years since 1962, the U.S. scientific and defense community 
established incontrovertibly, by means of nuclear tests and EMP 
simulators, that an EMP attack could have catastrophic effects by 
destroying electronic systems over broad regions--potentially over the 
entire contiguous United States.
    Because so much information about EMP was largely Classified for so 
long, myths abound about EMP, that the EMP Commission has endeavored to 
correct in its Unclassified reports and briefings. For example, a high-
yield nuclear weapon is not necessary to make an EMP attack. Although a 
high-yield weapon will generally make a more powerful EMP field than a 
low-yield nuclear weapon, ALL nuclear weapons produce gamma rays and 
EMP. The EMP Commission found, by testing modern electronics in 
simulators, that ANY nuclear weapon can potentially make a catastrophic 
EMP attack on the United States. Even a very low-yield nuclear weapon--
like a 1-kiloton nuclear artillery shell--will produce enough EMP to 
pose a catastrophic threat. This is so in part because the U.S. 
electric grid is so aged and overburdened, and because the high-tech 
electronics that support the electric grid and other critical 
infrastructures are over 1 million times more vulnerable to EMP than 
the electronics of the 1960s.
    The EMP Commission also found that, contrary to the claim that 
high-yield nuclear weapons are necessary for an EMP attack, that very 
low-yield nuclear weapons of special design can produce significantly 
more EMP than high-yield nuclear weapons. The EMP Commission found 
further that Russia, probably China, and possibly North Korea are 
already in possession of such weapons. Russian military writings call 
these ``Super-EMP'' nuclear weapons, and credibly claim that they can 
generate 200 kilovolts per meter--many times the 30 KVs/meter 
attributed to a high-yield (20 megaton) nuclear weapon of normal 
design. Yet a Super-EMP warhead can have a tiny explosive yield, 
perhaps only 1 kiloton, because it is specially designed to produce 
primarily gamma rays that generate the E1 electromagnetic shockwave 
component of the EMP effect. Super-EMP weapons are specialized to 
generate an overwhelming E1, and produce no E2 or E3 but do not need 
to, as their E1 is so potent.
    In 2004, credible Russian sources warned the EMP Commission that 
design information and ``brain drain'' from Russia had transferred to 
North Korea the capability to build a Super-EMP nuclear weapon ``within 
a few years.'' In 2006 and again in 2008, North Korea tested a nuclear 
device of very low yield, 1-3 kilotons, and declared these tests 
successful. South Korean military intelligence, in open-source 
reporting, independently corroborates the Russian warning that North 
Korea is developing a Super-EMP nuclear warhead. North Korea's 
proclivity to sell anything to anyone, including missiles and nuclear 
technology to fellow rogue nations Iran and Syria, makes Pyongyang's 
possession of Super-EMP nuclear weapons especially worrisome.
    Another myth is that rogue states or terrorists need a 
sophisticated intercontinental ballistic missile to make an EMP attack. 
In fact, any missile, including short-range missiles that can deliver a 
nuclear warhead to an altitude of 30 kilometers or more, can make a 
catastrophic EMP attack on the United States, by launching off a ship 
or freighter. Indeed, Iran has practiced ship-launched EMP attacks 
using Scud missiles--which are in the possession of scores of nations 
and even terrorist groups. An EMP attack launched off a ship, since 
Scuds are common-place and a warhead detonated in outer space would 
leave no bomb debris for forensic analysis, could enable rogue states 
or terrorists to destroy U.S. critical infrastructures and kill 
millions of Americans anonymously.
                              natural emp
    Mother Nature can also pose an EMP threat. The Sun emits solar 
flares and coronal mass ejections that can strike the Earth's 
magnetosphere and generate a natural EMP in the form of a geomagnetic 
storm. Geomagnetic storms rarely affect the United States, but 
regularly damage nations located at high northern latitudes, such as 
Canada, Norway, Sweden, Finland, and Russia. Damage from a normal 
geomagnetic storm can be severe. For example, in 1989 a geomagnetic 
storm over Canada destroyed the electric power grid in Quebec.
    The EMP Commission was the first to discover and report in 2004 
that every hundred years or so the Sun produces a great geomagnetic 
storm. Great geomagnetic storms produce effects similar to the E3 EMP 
from a multi-megaton nuclear weapon, and so large that it would cover 
the entire United States--possibly even the entire planet. Geomagnetic 
storms, even great geomagnetic storms, generate no E1 or E2, only E3, 
technically called the magnetohydrodynamic EMP.
    Nonetheless, E3 alone from a great geomagnetic storm is sufficient 
to end modern civilization. The EMP produced, given the current state 
of unpreparedness by the United States and every nation on Earth, could 
collapse power grids everywhere on the planet and destroy EHV 
transformers and other electronic systems that would require years to 
repair or replace.
    Modern civilization cannot exist for a protracted period without 
electricity. Within days of a blackout across the United States, a 
blackout that could encompass the entire planet, emergency generators 
would run out of fuel, telecommunications would cease as would 
transportation due to gridlock, and eventually no fuel. Cities would 
have no running water and soon, within a few days, exhaust their food 
supplies. Police, Fire, Emergency Services and hospitals cannot long 
operate in a blackout. Government and industry also need electricity in 
order to operate.
    The EMP Commission warns that a natural or nuclear EMP event, given 
current unpreparedness, would likely result in societal collapse.
    The last great geomagnetic storm was in 1859, called the 
``Carrington Event'' after the astronomer who noted the phenomenon. The 
1859 great geomagnetic storm caused fires in telegraph stations and 
burned the just-laid transatlantic cable, but its effects were not 
catastrophic because electronic systems were few and not essential to 
society in 1859. Great geomagnetic storms are recognizable in 
historical records because they produce highly unusual effects, like 
the appearance of the Aurora Borealis at the equator, that even common 
people often record in letters and diaries. No great geomagnetic storm 
has occurred in the modern era, in which society depends for its very 
existence on electronics. Most specialists believe a great geomagnetic 
storm is overdue, since this once-a-century phenomenon last occurred in 
1859. Many scientists believe a great geomagnetic storm is most likely 
to occur during the solar maximum, when solar flares and coronal mass 
ejections that cause geomagnetic storms increase sharply in frequency. 
The solar maximum recurs every 11 years, next in 2012-2013.
    NASA and the National Academy of Sciences (NAS) published a blue-
ribbon study independently confirming the warning of the EMP Commission 
about the threat posed by a great geomagnetic storm. The EMP Commission 
and the NASA-NAS reports, and several subsequent independent studies, 
conclude that if a great geomagnetic storm like the 1859 Carrington 
Event happened today, millions could die.
                        non-nuclear emp weapons
    Radiofrequency weapons of widely varying designs--some using 
conventional explosions to generate an EMP, others using microwave 
emitters to direct energy at a target, for example--can destroy, 
damage, and disrupt electronic systems at short ranges. Non-nuclear EMP 
weapons seldom have ranges or a radius of effect greater than 1 
kilometer, and usually much less than this.
    Some scientists credibly claim that non-nuclear EMP weapons can be 
developed having a radius of effect of tens of kilometers. However, no 
nation has yet demonstrated such a capability, including the United 
States, which has worked to develop advanced radiofrequency weapons for 
many years. Even such advanced non-nuclear EMP weapons would still be 
limited and localized in their effects, compared to the Nation-wide 
effects of a nuclear EMP attack or the planetary effects of a great 
geomagnetic storm.
    Microwave radiation is the lethal mechanism usually employed by 
non-nuclear EMP weapons, an effect somewhat comparable but not 
identical to E1 from a nuclear weapon. Radiofrequency weapons produce 
no E2 or E3 pulse.
    Terrorists, criminals, and even lone individuals can build a non-
nuclear EMP weapon without great trouble or expense, working from 
Unclassified designs publicly available on the internet, and using 
parts available at any electronics store. In 2000, the Terrorism Panel 
of the House Armed Services Committee sponsored an experiment, 
recruiting a small team of amateur electronics enthusiasts to attempt 
constructing a radiofrequency weapon, relying only on Unclassified 
design information and parts purchased from Radio Shack. The team, in 1 
year, built two radiofrequency weapons of radically different designs. 
One was designed to fit inside the shipping crate for a Xerox machine, 
so it could be delivered to the Pentagon mail room where (in those more 
unguarded days before 9/11) it could slowly fry the Pentagon's 
computers. The other radiofrequency weapon was designed to fit inside a 
small Volkswagon bus, so it could be driven down Wall Street and 
disrupt computers--and perhaps the National economy.
    Both designs were demonstrated and tested successfully during a 
special Congressional hearing for this purpose at the U.S. Army's 
Aberdeen Proving Ground.
    Radiofrequency weapons are not merely a hypothetical threat. 
Terrorists, criminals, and disgruntled individuals have used home-made 
radiofrequency weapons. The U.S. military and foreign militaries have a 
wide variety of such weaponry.
    Moreover, non-nuclear EMP devices that could be used as 
radiofrequency weapons are publicly marketed for sale to anyone, 
usually advertised as ``EMP simulators.'' For example, one such 
simulator is advertised for public sale as an ``EMP Suitcase.'' This 
EMP simulator is designed to look like a suitcase, can be carried and 
operated by one person, and is purpose-built with a high energy 
radiofrequency output to destroy electronics. However, it has only a 
short radius of effect. Nonetheless, a terrorist or deranged individual 
who knows what he is doing, who has studied the electric grid for a 
major metropolitan area, could--armed with the ``EMP Suitcase''--black 
out a major city.
                       a clear and present danger
    Emphasis is warranted that the nuclear EMP threat is not merely 
theoretical--it is real, a clear and present danger. Nuclear EMP attack 
is the perfect asymmetric weapon for state actors who wish to level the 
battlefield by neutralizing the great technological advantage enjoyed 
by U.S. military forces. EMP is also the ideal means, the only means, 
whereby rogue states or terrorists could use a single nuclear weapon to 
destroy the United States and prevail in the War on Terrorism or some 
other conflict with a single blow. The EMP Commission also warned that 
states or terrorists could exploit U.S. vulnerability to EMP attack for 
coercion or blackmail: ``Therefore, terrorists or state actors that 
possess relatively unsophisticated missiles armed with nuclear weapons 
may well calculate that, instead of destroying a city or military base, 
they may obtain the greatest political-military utility from one or a 
few such weapons by using them--or threatening their use--in an EMP 
attack.''
    The EMP Commission found that states such as Russia, China, North 
Korea, and Iran have incorporated EMP attack into their military 
doctrines, and openly describe making EMP attacks against the United 
States. Indeed, the EMP Commission was established by Congress partly 
in response to a Russian nuclear EMP threat made to an official 
Congressional Delegation on May 2, 1999, in the midst of the Balkans 
crisis. Vladimir Lukin, head of the Russian delegation and a former 
Ambassador to the United States, warned: ``Hypothetically, if Russia 
really wanted to hurt the United States in retaliation for NATO's 
bombing of Yugoslavia, Russia could fire an SLBM and detonate a single 
nuclear warhead at high altitude over the United States. The resulting 
EMP would massively disrupt U.S. communications and computer systems, 
shutting down everything.''
    China's military doctrine also openly describes EMP attack as the 
ultimate asymmetric weapon, as it strikes at the very technology that 
is the basis of U.S. power. Where EMP is concerned, ``The United States 
is more vulnerable to attacks than any other country in the world'':

``Some people might think that things similar to the `Pearl Harbor 
Incident' are unlikely to take place during the information age. Yet it 
could be regarded as the `Pearl Harbor Incident' of the 21st Century if 
a surprise attack is conducted against the enemy's crucial information 
systems of command, control, and communications by such means as . . . 
electromagnetic pulse weapons . . . Even a superpower like the United 
States, which possesses nuclear missiles and powerful armed forces, 
cannot guarantee its immunity . . . In their own words, a highly 
computerized open society like the United States is extremely 
vulnerable to electronic attacks from all sides. This is because the 
U.S. economy, from banks to telephone systems and from power plants to 
iron and steel works, relies entirely on computer networks . . . When a 
country grows increasingly powerful economically and technologically . 
. . it will become increasingly dependent on modern information systems 
. . . The United States is more vulnerable to attacks than any other 
country in the world.''

    Iran--the world's leading sponsor of international terrorism--in 
military writings openly describes EMP as a terrorist weapon, and as 
the ultimate weapon for prevailing over the West: ``If the world's 
industrial countries fail to devise effective ways to defend themselves 
against dangerous electronic assaults, then they will disintegrate 
within a few years . . . American soldiers would not be able to find 
food to eat nor would they be able to fire a single shot.''
    The threats are not merely words. The EMP Commission assesses that 
Russia has, as it openly declares in military writings, probably 
developed what Russia describes as a ``Super-EMP'' nuclear weapon--
specifically designed to generate extraordinarily high EMP fields in 
order to paralyze even the best protected U.S. strategic and military 
forces. China probably also has Super-EMP weapons. North Korea too may 
possess or be developing a Super-EMP nuclear weapon, as alleged by 
credible Russian sources to the EMP Commission, and by open-source 
reporting from South Korean military intelligence. But any nuclear 
weapon, even a low-yield first generation device, could suffice to make 
a catastrophic EMP attack on the United States. Iran, although it is 
assessed as not yet having the bomb, is actively testing missile 
delivery systems and has practiced launches of its best missile, the 
Shahab-III, fuzing for high-altitude detonations, in exercises that 
look suspiciously like training for making EMP attacks. As noted 
earlier, Iran has also practiced launching from a ship a Scud, the 
world's most common missile--possessed by over 60 nations, terrorist 
groups, and private collectors. A Scud might be the ideal choice for a 
ship-launched EMP attack against the United States intended to be 
executed anonymously, to escape any last-gasp U.S. retaliation. Unlike 
a nuclear weapon detonated in a city, a high-altitude EMP attack leaves 
no bomb debris for forensic analysis, no perpetrator ``fingerprints.''
                          emp vulnerabilities
    Today's microelectronics are the foundation of our modern 
civilization, but are over 1 million times more vulnerable to EMP than 
the far more primitive and robust electronics of the 1960s, that proved 
vulnerable during nuclear EMP tests of that era. Tests conducted by the 
EMP Commission confirmed empirically the theory that, as modern 
microelectronics become ever smaller and more efficient, and operate 
ever faster on lower voltages, they also become ever more vulnerable, 
and can be destroyed or disrupted by much lower EMP field strengths.
    Microelectronics and electronic systems are everywhere, and run 
virtually everything in the modern world. All of the civilian critical 
infrastructures that sustain the economy of the United States, and the 
lives of 310 million Americans, depend, directly or indirectly, upon 
electricity and electronic systems.
    Of special concern is the vulnerability to EMP of the Extra-High-
Voltage (EHV) transformers, that are indispensable to the operation of 
the electric grid. EHV transformers drive electric current over long 
distances, from the point of generation to consumers (from the Niagara 
Falls hydroelectric facility to New York City, for example). The 
electric grid cannot operate without EHV transformers--which could be 
destroyed by an EMP event. The United States no longer manufactures EHV 
transformers. They must be manufactured and imported from overseas, 
from Germany or South Korea, the only two nations in the world that 
manufacture such transformers for export. Each EHV transformer must be 
custom-made for its unique role in the grid. A single EHV transformer 
typically requires 18 months to manufacture. The loss of large numbers 
of EHV transformers to an EMP event would plunge the United States into 
a protracted blackout lasting years, with perhaps no hope of eventual 
recovery, as the society and population probably could not survive for 
even 1 year without electricity.
    Another key vulnerability to EMP are Supervisory Control And Data 
Acquisition systems (SCADAs). SCADAs essentially are small computers, 
numbering in the millions and ubiquitous everywhere in the critical 
infrastructures, that perform jobs previously performed by hundreds of 
thousands of human technicians during the 1960s and before, in the era 
prior to the microelectronics revolution. SCADAs do things like 
regulating the flow of electricity into a transformer, controlling the 
flow of gas through a pipeline, or running traffic control lights. 
SCADAs enable a few dozen people to run the critical infrastructures 
for an entire city, whereas previously hundreds or even thousands of 
technicians were necessary. Unfortunately, SCADAs are especially 
vulnerable to EMP.
    EHV transformers and SCADAs are the most important vulnerabilities 
to EMP, but are by no means the only vulnerabilities. Each of the 
critical infrastructures has their own unique vulnerabilities to EMP:
    The National electric grid, with its transformers and generators 
and electronic controls and thousands of miles of power lines, is a 
vast electronic machine--more vulnerable to EMP than any other critical 
infrastructure. Yet the electric grid is the most important of all 
critical infrastructures, and is in fact the keystone supporting modern 
civilization, as it powers all the other critical infrastructures. As 
of now it is our technological Achilles Heel. The EMP Commission found 
that, if the electric grid collapses, so too will collapse all the 
other critical infrastructures. But, if the electric grid can be 
protected and recovered, so too all the other critical infrastructures 
can also be restored.
    Transportation is a critical infrastructure because modern 
civilization cannot exist without the goods and services moved by road, 
rail, ship, and air. Cars, trucks, locomotives, ships, and aircraft all 
have electronic components, motors, and controls that are potentially 
vulnerable to EMP. Traffic control systems that avert traffic jams and 
collisions for road, rail, and air depend upon electronic systems, that 
the EMP Commission discovered are especially vulnerable to EMP. Gas 
stations, fuel pipelines, and refineries that make petroleum products 
depend upon electronic components and cannot operate without 
electricity. Given our current state of unpreparedness, in the 
aftermath of a natural or nuclear EMP event, transportation systems 
would be paralyzed.
    Communications is a critical infrastructure because modern 
economies and the cohesion and operation of modern societies depend to 
a degree unprecedented in history on the rapid movement of 
information--accomplished today mostly by electronic means. Telephones, 
cell phones, personal computers, television, and radio are all directly 
vulnerable to EMP, and cannot operate without electricity. Satellites 
that operate at Low-Earth-Orbit (LEO) for communications, weather, 
scientific, and military purposes are vulnerable to EMP and to 
collateral effects from an EMP attack. Within weeks of an EMP event, 
the LEO satellites, which comprise most satellites, would probably be 
inoperable. In the aftermath of a nuclear or natural EMP event, under 
present levels of preparedness, communications would be severely 
limited, restricted mainly to those few military communications 
networks that are hardened against EMP.
    Banking and finance are the critical infrastructure that sustain 
modern economies. Whether it is the stock market, the financial records 
of a multinational corporation, or the ATM card of an individual--
financial transactions and record keeping all depend now at the macro- 
and micro-level upon computers and electronic automated systems. Many 
of these are directly vulnerable to EMP, and none can operate without 
electricity. The EMP Commission found that an EMP event could transform 
the modern electronic economy into a feudal economy based on barter.
    Food has always been vital to every person and every civilization. 
The critical infrastructure for producing, delivering, and storing food 
depends upon a complex web of technology, including machines for 
planting and harvesting and packaging, refrigerated vehicles for long-
haul transportation, and temperature-controlled warehouses. Modern 
technology enables over 98 percent of the U.S. National population to 
be fed by less than 2 percent of the population. Huge regional 
warehouses that resupply supermarkets constitute the National food 
reserves, enough food to feed the Nation for 30-60 days at normal 
consumption rates, the warehoused food preserved by refrigeration and 
temperature control systems that typically have enough emergency 
electrical power (diesel or gas generators) to last only about an 
average of 3 days. Experience with storm-induced blackouts proves that 
when these big regional food warehouses lose electrical power, most of 
the food supply will rapidly spoil. Farmers, less than 2 percent of the 
population as noted above, cannot feed 310 million Americans if 
deprived of the means that currently makes possible this technological 
miracle.
    Water too has always been a basic necessity to every person and 
civilization, even more crucial than food. The critical infrastructure 
for purifying and delivering potable water, and for disposing of and 
treating waste water, is a vast networked machine powered by 
electricity that uses electrical pumps, screens, filters, paddles, and 
sprayers to purify and deliver drinkable water, and to remove and treat 
waste water. Much of the machinery in the water infrastructure is 
directly vulnerable to EMP. The system cannot operate without vast 
amounts of electricity supplied by the power grid. A natural or nuclear 
EMP event would immediately deprive most of the U.S. National 
population of running water. Many natural sources of water--lakes, 
streams, and rivers--would be dangerously polluted by toxic wastes from 
sewage, industry, and hospitals that would backflow from or bypass 
wastewater treatment plants, that could no longer intake and treat 
pollutants without electric power. Many natural water sources that 
would normally be safe to drink, after an EMP event, would be polluted 
with human wastes including feces, industrial wastes including arsenic 
and heavy metals, and hospital wastes including pathogens.
    Emergency services such as police, fire, and hospitals are the 
critical infrastructure that upholds the most basic functions of 
government and society--preserving law and order, protecting property 
and life. Experience from protracted storm-induced blackouts has shown, 
for example in the aftermath of Hurricanes Andrew and Katrina, that 
when the lights go out and communications systems fail and there is no 
gas for squad cars, fire trucks, and ambulances, the worst elements of 
society and the worst human instincts rapidly takeover. The EMP 
Commission found that, given our current state of unpreparedness, a 
natural or nuclear EMP event could create anarchic conditions that 
would profoundly challenge the existence of social order.

    Mr. Perry. Thank you, Dr. Pry.
    The Chairman now recognizes Dr. Frankel for 5 minutes.

 STATEMENT OF MICHAEL J. FRANKEL, SENIOR SCIENTIST, PENN STATE 
            UNIVERSITY, APPLIED RESEARCH LABORATORY

    Mr. Frankel. Thank you, Mr. Chairman, honorable Members. My 
name is Mike Frankel. As the initial bio mentioned, I am a 
theoretical physicist by trade. I have spent much of my career 
in Government service with a focus on understanding nuclear 
weapons and their effects. I am appearing before you today 
pursuant to my service as the executive director of the EMP 
Commission during the entire span of its activity. I have 
provided extended remarks for the record, and what I wish to do 
in the few moments here is just make a few summary remarks and 
recommendations.
    There are a number of important legacies of the Commission; 
not the least, as Dr. Pry just mentioned, is highlighting the 
effects of a so-called supersolar storm, which was first 
identified as a vulnerability by the Commission and I think is 
now part of the regular discourse, and which the Nation is 
still, as far as I can see, unprepared to deal with.
    Another important analytic insight provided by the 
Commission was its understanding and raising the alarm for the 
prospect of simultaneous failures of the system. All engineers 
design their systems against single-point failure. We saw an 
instance of that. Recently there was an incident reported in 
the Wall Street Journal where a PG&E substation was attacked by 
an individual, individuals with rifles. The entire substation 
went off-line. Transformers were damaged, but the population 
didn't notice anything. It was a single-point failure of a 
single station. The control systems functioned as they were 
supposed to. Electricity was rerouted, et cetera.
    It was the large number of failures that the EMP Commission 
analyzed that fall within a large geographical area provided by 
the EMP footprint which kind-of raised the alarm of many 
multiple failures. Nobody designs against multiple failures. 
Here and there you may find some engineers who design against 
two simultaneous failures. But these failures can be affected 
not just by EMP. They could be affected by cyber. The important 
thing is that if there are simultaneous failures over large 
areas, the analysis of the Commission was things are very 
likely to fail, and restoration will take a very long time.
    Another important point which I would like to make here, 
which wasn't made by the EMP Commission in its report, is the 
nexus between EMP and cyber. Both of those are modes of attack 
on our electronic systems which sustain our society. They work 
even kind-of in the same way. They reach out through the 
electrical distribution system, and they inflict currents, 
voltages on the system so the system will not operate the way 
the owner expects them to. If resources are being allocated to 
prevent the cyber threat, it seems foolish not to also address 
at the same time one end of the cyber threat, which is the EMP, 
kind-of the ``stupid cyber'', if you will.
    Finally, what I would like to do in the last minute or so 
that I have left is touch on the reception which the EMP 
Commission's recommendations received. The recommendations were 
pointed towards both the Defense Department and to the 
Department of Homeland Security. The Secretary of Defense 
considered the recommendations; in fact, concurred with most of 
them. An action plan was promulgated. Funds were allocated in 
the outyears. The Defense Science Board was stood up, and 
essentially EMP research and alertness was reinvigorated within 
the Department of Defense and the acquisition community there.
    No similar reaction was noted in the Department of Homeland 
Security. There was no office of responsibility designated at a 
confirmed level. Funds weren't POM'd. There are still 75 
recommendations pointed towards the Department of Homeland 
Security within its purview that could increase the resilience, 
survivability, and recovery of our electric grid were it 
subject to such an event, and it will be, at least through the 
natural EMP of the sun; and something needs doing, and now is 
the time to do it.
    I thank you for the opportunity to make these remarks, and 
that concludes my own remarks. Thank you.
    [The prepared statement of Mr. Frankel follows:]
                Prepared Statement of Michael J. Frankel
                              May 8, 2014
    Mr. Chairman and Honorable Members of the committee, thank you for 
the opportunity to testify today about an important but relatively 
neglected vulnerability that affects the resilience of all of our 
Nation's critical infrastructures. My name is Mike Frankel. I'm a 
theoretical physicist by trade and presently a member of the senior 
scientific staff at Penn State University's Applied Research 
Laboratory. I've spent a career in Government service developing 
technical and scientific expertise on the effects of nuclear weapons, 
managing WMD programs, and performing scientific research in a variety 
of National security positions with the Navy, the old Defense Nuclear 
Agency, and the Office of the Secretary of Defense. I appear before you 
today pursuant my service as the executive director of the EMP 
Commission during its entire span of activity, commencing with 
authorization if the Floyd D. Spence National Defense Authorization Act 
of 2001 and culminating with delivery of its final, Classified, 
assessment to the Congress in 2009 The conclusions of the Commission 
were documented in a series of five volumes, three of them Classified, 
and in particular the Commission's perspectives related to 
infrastructure protection were documented in an Unclassified volume 
``Critical National Infrastructures,'' released in November 2008. What 
I'd like to do is expand on some of the Commission's conclusions in 
light of recent developments since submitting our final report. I 
should also like to emphasize a new topic that was not referenced in 
that final report, and that is the nexus between the cybersecurity 
threat and EMP.
    One of the major insights of the EMP Commission was to highlight 
the unique danger to the electric grid caused by simultaneous failures 
induced by the large number of components that fall within an EMP's 
damaging footprint on the ground. As first reported in the journal 
Foreign Affairs and picked up a month later by the Wall Street Journal, 
on the night of April 16, 2013, a locked PG&E substation was 
infiltrated and a number of high-voltage transformers attacked by 
still-unidentified individuals firing rifles. Damaged transformers went 
off-line but the SCADA controls automatically re-routed the electrical 
distribution along alternate paths. In this case, standard engineering 
practice which designs around the possibility of single point failure, 
kicked in just as it should, and little effect was noticed by the 
general population. However, it took nearly a full month to repair the 
damaged transformers and return them to service. An important analytic 
contribution of the Commission was to highlight the possibility of 
highly multiple numbers of component failures, as might be expected 
within the wide area encompassed by an EMP event footprint. No one 
designed against such a possibility and it was the Commission's 
conclusion, based on its own analyses and on a close collaboration with 
power industry engineers, that such a scenario would inevitably lead to 
very wide-spread, and very long-term collapse of the Nation's electric 
grid, with potentially devastating economic and ultimately physical and 
health consequences. The PG&E incident should remind us that the 
Commission's analytic insight extends far beyond EMP. While in this 
case only a single substation was attacked, had there been a 
coordinated physical attack against many simultaneous targets, or for 
that matter by localized EMP sources such as readily available HPM/RF 
sources, it seems inevitable that electric service to much larger 
fraction of the population would have been compromised and for an 
indefinitely prolonged period. And of course, the same result could be 
achieved by simultaneous cyber-attack, with much reduced physical 
exposure by the perpetrators. So there's a real vulnerability there 
that needs to be addressed.
    I should also like to turn some attention to the generally 
unremarked overlap between electromagnetic vulnerability of the type 
described by the EMP Commission and the more general issue of cyber 
vulnerability. While not often considered in tandem, it is more correct 
to consider EMP vulnerabilities as one end of a continuous spectrum of 
cyber threats to our electronic-based infrastructures. They share both 
an overlap in the effects produced--the failure of electronic systems 
to perform their function and possibly incurring actual physical 
damage--as well as their mode of inflicting damage. They both reach out 
through the connecting electronic distribution systems, and impress 
unwanted voltages and currents on the connecting wires. In the usual 
cyber case, those unwanted currents contain information--usually in the 
form of malicious code--that instructs the system to perform actions 
unwanted and unanticipated by its owner. In the EMP case, the impressed 
signal does not contain coded information. It is merely a dump of 
random noise which may flip bit states, or damage components, and also 
ensures the system will not behave in the way the owner expects. This 
electronic noise dump may thus be thought of as a ``stupid cyber''. 
When addressing the vulnerability of our infrastructures to the cyber 
threat, it is important that we not neglect the EMP end of the cyber 
threat spectrum. And there is another important overlap with the cyber 
threat. With the grid on the cusp of technological change in the 
evolution to the ``smart grid'', the proliferation of sensors and 
controls which will manage the new grid architecture must be protected 
against cyber at the same time they must be protected against EMP. 
Cyber and EMP threats have the unique capability to precipitate highly 
multiple failures of these many new control systems over a widely 
distributed geographical area, and such simultaneous failures, as 
previously discussed, are likely to signal a wider and more long-
lasting catastrophe.
    Another important legacy of the EMP Commission was to first 
highlight the danger to our electric grid due to solar storms, which 
may impress large--and effectively DC--currents on the long runs of 
conducting cable that make up the distribution system. While this 
phenomenon has long been known, and protected against, by engineering 
practices in the power industry, the extreme 100-year storm first 
analyzed by the Commission is now widely recognized to represent a 
major danger to our National electrical system for which adequate 
protective measures have not been taken and whose consequences--the 
likely collapse of much of the National grid, possibly for a greatly 
extended period, may rightly be termed catastrophic. At this point, the 
only scientific controversy attending the likelihood of our system 
being subject to a so-called super solar storm, is related to the time-
constant. But these events have already occurred within the last 
century or so, they will occur again. We should be ready.
    The most important legacy of the EMP Commission however, was in the 
recommendations which were provided that would, if acted upon, protect 
key assets of both the civilian and military infrastructures, and it is 
here that I should like to point to an important divergence in the 
Government's response. The (Classified) recommendations that were 
provided to the Department of Defense were formally considered, in the 
large main concurred with, and then acted upon. The Secretary of 
Defense issued a Classified action plan, out-year funding was POM'd in 
the FYDP, an office and an official of responsibility were appointed, a 
standing Defense Science Board committee was stood up, an active 
research program is maintained, and survivability and certification 
instructions were issued by both DOD and by USSTRATCOM. Today, while 
vigilant oversight continues to be warranted, an EMP awareness pervades 
our acquisition system and operational doctrine. The response on the 
civilian side of the equation was not so rosy. The final report of EMP 
Commission contained 75 recommendations to improve the survivability, 
operability, resilience, and recovery of all the critical 
infrastructures, and in particular of the most key of all, the 
electrical grid. Most of these recommendations were pointed towards the 
Department of Homeland Security. While there have been some 
conversations, it has been hard to detect much of an active resonance 
at all issuing from the Department. They have not, as far as I know, 
even designated EMP as a one of their 10 of 15 disaster scenarios for 
advanced planning circumstances. And this at a time when they do 
include a low-altitude nuclear disaster--certainly disastrous but not 
one that would produce wide-ranging EMP.
    In the end, it is hard to deal with 75 recommendations, all at 
once. But the solution is not to ignore all of them. If there is only a 
single essentially a no-cost step I would leave this committee with, it 
would be to task the Department of Homeland Security with responding to 
the still-languishing recommendations of the EMP Commission. The 
Department of Defense did issue a response, as mandated by the 
legislation which originally created that Commission. But no such 
mandatory response was levied at the time on the Department of Homeland 
Security, which did not even exist when the Commission legislation was 
passed as part of the National Defense Authorization Act of 2001. The 
DHS should be required to explain which recommendations they concur 
with and/or with which they non-concur, and why. They should be asked 
to prioritize amongst the 75 and come back with implementation 
recommendations, or explain why they think it is unnecessary. And 
finally, I would also urge the committee to support passage of the 
Critical Infrastructure Protection Act.
    I wish to thank the committee for this opportunity to present my 
views of this most important issue.

    Mr. Perry. Thank you, Dr. Frankel.
    The Chairman will now recognize Dr. Beck for his testimony.

 STATEMENT OF CHRIS BECK, VICE PRESIDENT, POLICY AND STRATEGIC 
   INITIATIVES, THE ELECTRIC INFRASTRUCTURE SECURITY COUNCIL

    Mr. Beck. Thank you, very much, Chairman Perry, Ranking 
Member Clarke, Mr. Franks, and Mr. Vela. Thank you for holding 
this hearing on one of the most significant threats to our 
National and homeland security.
    As was mentioned earlier, before I joined EIS Council, I 
did work for this committee focusing on critical infrastructure 
protection and science and technology issues, and it was 
through that exposure to this particular threat that I found it 
to be so significant that I wanted to work on it full time.
    The Electric Infrastructure Security Council's mission is 
to work in partnership with Government and corporate 
stakeholders to host National and international education, 
planning, and communication initiatives to help improve 
infrastructure protection against electromagnetic threats, or 
E-threats, and other hazards. The summary of my remarks 
basically are gleaned from international summit meetings that 
EIS Council hosts, and which are chaired by Mr. Franks and Ms. 
Clarke, and with that, I want to give a summary of some of the 
findings of those discussions as well as other discussions.
    The problem with EMP or GMD is that developed nations are 
vulnerable to serious National power grid disruption from 
electromagnetic threats, both natural and malicious. The 
severity can range from regional blackout with serious economic 
consequences to, in the worst-case scenario, a catastrophe that 
would threaten societal continuity.
    The timing of the events for severe space weather--the most 
recent severe events occurred roughly 90 and 150 years ago, but 
the timing of the next such occurrence, as with all extreme 
natural disasters, is unknown. Local, or nonnuclear, or 
subcontinental, or nuclear EMP could also occur at any time, 
possibly encouraged by on-going vulnerability or triggered by 
changing geopolitical realities.
    Key questions that need to be addressed are: What should 
our National strategy be? We could take a couple of approaches 
there: Hope for the best and accept the status quo; or 
encourage cost-effective resilience, restoration, and response 
planning. Looking at response, it is important to define the 
path, who should be involved, and how broad our response should 
be.
    A common theme of all the many summit deliberations, 
Government reports, et cetera, over the past several years is 
that the risks associated with severe E-threats are serious. It 
is hard to find anyone who would assert that in today's world 
hoping for the best is a good strategy for GMD, EMP, or 
intentional electromagnetic interference, or IEMI.
    The path forward consists of organization and coordination. 
Given the grid's organic design, the consensus of Government 
studies is that a coordinated planning and standards will be 
important. Finding the best possible balance between broadly-
accepted proactive corporate coordination and Government action 
will be important to assure fast, effective progress in 
achieving an E-threat-resilient grid.
    Who should be involved? Given the likelihood of a large 
regional power outage after a National or malicious e-threat, 
power companies will need to be operating in an environment of 
extensive response and recovery support from Federal and State 
government authorities, as well as community response, 
nongovernmental organizations. So the evolution of planning to 
address these concerns should include the broadest possible 
involvement of all of these stakeholders, each contributing in 
its own domain of authority and expertise.
    For all E-threats under consideration here, efforts of 
prevention, if they are to be effective, must primarily be 
focused where the impact will occur, in the power grid. For 
severe space weather, there is clearly no other alternative. 
For malicious threats, EMP and IEMI, U.S. and allied government 
security officials and experts at the highest level agree that 
neither deterrence nor active military measures can alone 
guarantee the security of our homeland against a determined 
aggressor prepared to use such weapons.
    In conclusion, I should note that there appear to be no 
significant technical or financial barriers to mitigating this 
threat. The technologies and operational procedures needed are 
well understood, and the cost, based on both Government 
estimates and recent corporate experience, is reasonable.
    I would welcome the opportunity to discuss any of these 
points in greater detail, and this concludes my prepared 
testimony, and I would be happy to answer any questions.
    [The prepared statement of Mr. Beck follows:]
                    Prepared Statement of Chris Beck
                              May 8, 2014
                              introduction
    Good afternoon Chairman Meehan, Ranking Member Clarke, and Members 
of the subcommittee. Thank you for holding this hearing on one of the 
most significant threats to our National and Homeland Security. As many 
of you know, before I joined EIS Council, I worked for this committee, 
focusing on Critical Infrastructure Protection and Science and 
Technology issues. It was through that work that I first became aware 
of the threats facing our critical electric infrastructures, and I 
found the issue to be so important that I felt compelled to focus on it 
exclusively.
    The Electric Infrastructure Security Council's mission is to work 
in partnership with Government and corporate stakeholders to host 
National and international education, planning, and communication 
initiatives to help improve infrastructure protection against 
electromagnetic threats (e-threats) and other hazards. E-threats 
include naturally occurring geomagnetic disturbances (GMD), high-
altitude electromagnetic pulses (HEMP) from nuclear weapons, and non-
nuclear EMP from intentional electromagnetic interference (IEMI) 
devices--the focus of today's hearing.
                        emp--defining the issue
    The Problem.--Developed nations are vulnerable to serious national 
power grid disruption from e-threats, both natural and malicious.
    The Severity.--The impact can range from a broad regional blackout 
with serious economic consequences to, in the worst case, a catastrophe 
that would threaten societal continuity. With even the most benign 
scenarios projecting high societal costs, the committee is correct to 
focus on this as an issue deserving serious attention.
    The Timing.--For severe space weather, the most recent events 
occurred roughly 90 and 150 years ago, but the timing of the next such 
occurrence, as with all extreme natural disasters, is unknown. Either 
local (non-nuclear) or sub-continental (nuclear) EMP could occur at any 
time, encouraged by on-going vulnerability, and triggered by changing 
geopolitical realities.
                             key questions
1. What Should Our National Strategy Be?
    At top level, there are two alternative paths:
    a. Hope for the best: Accept the status quo.
        i. For severe space weather, this means hoping the most 
            optimistic projections will turn out to be correct, and the 
            impact will not be catastrophic.
        ii. EMP has been called, ``The most powerful asymmetric weapon 
            in history.'' This approach means hoping no terrorist 
            organization or rogue state will ever take advantage of the 
            power of such devastating weapons.
    b. The other alternative:
        Encourage cost-effective resilience, restoration, and response 
            planning.
2. If We Respond, What Is the Path?
    How should we address interconnect-wide interdependence, and how 
should we proceed with implementation?
3. If We Respond, Who Should Be Involved?
    Who should take responsibility to define the path, and implement 
it? How should the balance between public mandates and private, 
corporate initiative be determined?
4. How Broad Should Our Response Be?
    Should both GMD and EMP be included?
                       consensus recommendations
1. Hope vs. Preparation: Choosing a Strategy
    A common theme of all the many Government reports studying these 
risks, also reflected in the deliberations of the Electric 
Infrastructure Security Summits over the last several years, is that 
the risks associated with severe e-threats are serious. It is hard to 
find anyone who would assert that, in today's world, ``hoping for the 
best'' is a good strategy for GMD, EMP, or IEMI.
2. What Is the Path?
    Our National power grid is organic in design, but administratively 
complex. This means approaches are needed that address both of these 
factors.
    <bullet> Organization and coordination.--Given the grid's organic 
            design, the consensus of Government studies is that 
            coordinated planning and standards will be important. 
            Finding the best possible balance between broadly-accepted, 
            pro-active corporate coordination and Government action 
            will be important to assure fast, effective progress in 
            achieving an e-threat resilient grid.
    <bullet> Technical.--A key point, not always recognized, is there 
            is no need to ``gold plate'' the system.
        For Severe Space Weather, there is already growing discussion 
            of a range of strategies, and none of the approaches under 
            active discussion--from planning measures to comprehensive 
            automated hardware protection--appear high in cost, 
            relative to existing logistics budgets and investment 
            models.
        For EMP, protection planning can focus--not on hardening every 
            component in the power grid--but on protection of a 
            fraction of grid facilities and hardware. In other words, 
            enough resilience investment, and associated restoration 
            planning, to protect enough generation resources and 
            critical loads to allow for both effective restoration and 
            for prioritized support to critical users and 
            installations.
2. Who Should Be Involved?
    Given the likelihood of a large regional power outage after a 
natural or malicious e-threat, power companies will need to be 
operating in an environment of extensive response and recovery support 
from Federal and State government authorities, as well as community-
response NGOs. Thus, the evolution of planning to address these 
concerns should include the broadest possible involvement of all of 
these stakeholders, each contributing in its own domain of authority 
and expertise.
3. How Broad Should Our Scope Be?
    For all the E-threats under consideration here, efforts at 
protection, if they are to be effective, must primarily be focused 
where the impact will occur--in the power grid. For severe space 
weather, there is clearly no other alternative. For malicious threats, 
EMP and IEMI, U.S. and allied government security officials and experts 
at the highest levels agree that neither deterrence nor active military 
measures can alone guarantee the security of our homeland against a 
determined aggressor prepared to use such weapons.
    In conclusion, I should note that there appear to be no significant 
technical or financial barriers to mitigating this threat. The 
technologies and operational procedures needed are well understood, and 
the cost--based on both Government estimates and recent corporate 
experience--is reasonable. One of the primary needs is for education to 
increase awareness and therefore willingness to address the problem, 
and for coordination to address the administrative complexity of our 
Nation's power grid.
    This summary of consensus-based themes and recommendations 
reflects, I believe, not only the conclusions of the many major 
Government studies of these issues, but also the deliberations of the 
past four international Electric Infrastructure Security Summits, with 
participation by the highest levels of many departments and agencies of 
the U.S. and allied governments, and of a broad range of scientists and 
domain experts working in this field.
    I would welcome the opportunity to discuss any of these points in 
greater detail.
    This concludes my prepared testimony, and I would be happy to 
answer any questions.

    Mr. Perry. Thank you, Dr. Beck.
    The Chairman now recognizes himself for 5 minutes for 
questions. These generally go out to each one of you, and one 
just came to mind as Dr. Beck was talking.
    So let me ask you this. If we do harden and protect the 
grid, but this affects potentially all electric and electronic 
devices, so even though we harden the grid and power stations 
and can produce power and so on and so forth, will the systems 
in individual homes and businesses, like refrigerators and 
heating and cooling systems, will they be affected to the point 
where they will all need to be replaced, or even while we have 
power to our homes, none of the lights will come on and so on 
so forth? Can anybody illuminate the answer to that question?
    Mr. Pry. Well, it depends on the scenario. If you are 
talking about a geomagnetic storm, it puts at the wavelength of 
that, which we call E3, or magnetohydrodynamic EMP is so long 
that it needs to couple into long lines, like power lines, 
railroad tracks. It won't couple into automobiles, 
refrigerators, personal computers, and things of that sort. So 
under that scenario, yes, if you basically keep the electric 
grid on, you will be able to recover the rest of the society 
pretty promptly.
    In the nuclear case of a nuclear EMP, it has an 
electromagnetic shock wave that we call E1. This can couple 
into personal computers, automobiles, and the like, and so you 
will have deeper societal damage; but then, again, it depends 
on the kind of weapon used. If it is a primitive, first-
generation nuclear weapon, you know, it is not likely to do 
that across the whole country. It would be more limited to a 
several-State-size region. If it is the worst-case kind of a 
nuclear weapon, like a super EMP weapon, which is what we think 
Russia, China, and probably North Korea have, you know, then 
you are talking about a scenario where you are having massive, 
deep damage to personal computers, and refrigerators, and 
lights and the rest. But if you don't have the bulk power 
system surviving, there is no hope of recovery under those 
circumstances. Under that worst-case scenario, what you are 
doing is you are mitigating a catastrophe and turning it into a 
manageable disaster, a situation where you won't have massive 
loss of life, hopefully.
    Mr. Perry. Next question I have is we know that the EPA has 
promulgated a bevy of regulations on power plants under the 
current administration. Probably the most obtrusive regulation 
has been the Mercury and Air Toxics rule, or utility MACT, 
which has shut down numerous power plants across the country, 
and there is a claim that some power plants are grandfathered 
in and avoid updating their facilities in order to avoid new 
regulations from the EPA.
    Do you have any knowledge, is it possible that some power 
plants are unwilling to update their facilities and protect 
against EMP attacks in order to avoid new regulations from the 
EPA? Is there any knowledge here based to answer that question? 
It might not necessarily be for you folks here, but----
    Mr. Frankel. I have no specific knowledge about that, but I 
do know that the power companies are generally reluctant go in 
and try to refit the generation plants. Any time you ask people 
to spend money and that it sounds like a mandate to them, there 
is a reflexive negativity to that.
    Mr. Perry. Sure.
    How would you rate the likelihood that the United States 
will face an EMP event from either a high-altitude 
electromagnetic pulse, a HEMP, or a massive solar storm?
    Mr. Frankel. I will take that one. You guys can as well.
    I think that the likelihood that the United States will 
face at some point a so-called massive solar storm, and thus 
our entire system will be under the footprint, if you will, of 
a massive solar storm, is about 100 percent. It will happen. 
The uncertainty here, I believe, is the time constant. It could 
happen next year, it could be 100 years, but probably not 1,000 
years.
    The probability that we will be faced with a nuclear HEMP I 
would say is unknown. I don't call it high. I don't call it 
low. I would say it is an unknown probability.
    Mr. Beck. I would agree with both of those statements.
    Mr. Pry. I would concur and also point out that the 
National Intelligence Council that writes the Classified 
National intelligence estimates and speaks for the whole U.S. 
intelligence community considered this issue so important that 
they put out an Unclassified study called Global Trends 2030, 
which is available on the internet, that describes eight black 
swan scenarios that could alter the course of global 
civilization by or before 2030. In the judgment of the National 
Intelligence Council, the recurrence of something like a 
Carrington Event, a geomagnetic superstorm, is one of those 
events that by or before 2030 could change the course of global 
civilization.
    Mr. Perry. That is hardly comforting.
    My time, however, has expired, so the Chairman recognizes 
the Ranking Member of the subcommittee, Ms. Clarke, for 
questions.
    Ms. Clarke. I thank you, Mr. Chairman, and I thank our 
witnesses for their testimony here today.
    I just wanted to clarify for the record from Dr. Pry and 
Dr. Frankel, I see that both of you served as staff on the EMP 
Commission in 2004 or thereabouts, but I am trying to get a 
sense of what organizations you are representing today, and how 
can we learn more about those organizations?
    Mr. Frankel. I am representing only my status as a senior 
scientist at the Penn State University. I am not representing--
I do some work for the Department of Defense, but I am in no 
way representing them.
    Ms. Clarke. You are not representing Penn State either, are 
you?
    Mr. Frankel. No. Penn State, I would say, does not have a 
position about EMP.
    Mr. Pry. We both served on the Congressional EMP Commission 
through its life, from 2001 to 2008. I am currently the 
executive director of the Task Force on National and Homeland 
Security, which was an effort to continue the EMP Commission, 
because the Commissioners, including the chairman, believed it 
was terminated prematurely before its work was completed. So 
this task force is an attempt to continue the EMP Commission in 
some way. Dr. Graham, for example, who is the chairman of that 
Commission, is the chairman of my task force, and I am here 
today representing the task force.
    Ms. Clarke. Okay. Very well. Thank you very much.
    First of all, I wanted to ask, Mr. Chairman, if we could 
submit for the record the international E-Pro report. This 
report was prepared by Dr. Beck under a DOE contract and 
describes EMP status internationally.
    Mr. Perry. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information is retained in committee files.
---------------------------------------------------------------------------
    Ms. Clarke. For our colleagues, there are additional copies 
on the table for those who may be interested.
    Dr. Beck, we all know that extreme atmospheric weather and 
solar weather that could potentially produce EMPs and other 
natural disasters can threaten lives, disable communities, and 
devastate generation transmission and distribution systems. 
Efforts to harden the electricity grid must focus on three 
elements: Prevention, recovery, and survivability, and these 
elements will apply to a situation in which a potential EMP 
event is involved.
    A recent storm such as Hurricane Sandy, which affected my 
district, pinpointing affected areas was problematic as was 
finding a clear route for crews through streets that were 
blocked by fallen trees. As a result, crews were sometimes 
idled because they could not reach affected areas.
    First, preventing this kind of damage in the distribution 
system will require changes in design standards and 
construction guidelines, maintenance routines, and inspection 
procedures. Second, recovery and resiliency planning ought to 
provide for rapid damage assessment and readily available 
replacement components. Third, survivability refers to the 
ability to maintain some basic level of electrical 
functionality to individual consumers and communities in the 
event of a complete loss of electrical service from the 
distribution system.
    Would you give us your views on how DHS can help the 
electricity sector focus and plan for an EMP event involving 
what it commonly refers to as resiliency issues which would 
incorporate prevention, recovery, and survivability?
    Mr. Beck. Thank you for the question. I think that the 
position for DHS of what DHS can provide really is leadership. 
The DHS is not a regulatory agency. It functions by enhancing 
public-private partnerships and information dissemination, and 
as such they have the ability to work across multiple sectors. 
They work with the first-responder community, they work with 
science and technology, they work with industry to provide 
frameworks and guidelines for all, the whole spectrum that you 
mentioned. That can be from protecting or mitigating equipment 
themselves, that can be about operational procedures, and it 
can also be about educating first responders and local 
authorities on what the situation might look like in the event 
of one of these events and how best to prepare for planning.
    So as an example, with Superstorm Sandy, you mentioned that 
debris, downed lines, these kinds of things were a major 
problem. There was flooding, et cetera. In an EMP or GMD 
scenario, that particular issue will probably not be something 
to worry about, but there would be other planning. You 
mentioned the electricity crews. Well, as Dr. Frankel 
mentioned, with a Nation-wide footprint, there could be outages 
in a lot of areas, and so preparation for having electrical 
crews be ready for the kind of restoration that will be needed, 
that kind of thing I think is the area where DHS could provide 
the best leadership.
    Ms. Clarke. My time has lapsed, but, gentlemen, was there 
anything that you wanted to add to that response? Yield back.
    Mr. Frankel. Well, I would add that the recommendations of 
the EMP Commission directed at the Department of Homeland 
Security are still kind of languishing out there, and I think 
they are still pretty good.
    Mr. Perry. The Chairman thanks the gentlelady for the first 
round anyhow, and the Chairman recognizes Representative 
Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    I was struck by the last remark that you made. As you know, 
the Department of Homeland Security Act of 2002 stood up the 
Department of Homeland Security and created a Presidentially-
appointed position for an assistant secretary for 
infrastructure protection. That is the quote. The mission is to 
recommend measures necessary to protect the key resources and 
critical infrastructure of the United States in coordination 
with other agencies of the Federal Government, but in your 
estimation you are suggesting that that hasn't been fulfilled. 
Do you think that passing this Critical Infrastructure 
Protection Act would catalyze some change in that direction? I 
will pass that to you, Dr. Frankel, and if anyone else wants to 
address it.
    Mr. Frankel. I absolutely do think that that is almost a 
necessary first step. Now, you mentioned the Department of 
Homeland Security was stood up in 2002 or 2003. It was actually 
stood up after the legislation which created the EMP 
Commission, and, as such, only the Secretary of Defense was 
mandated to actually take a look and respond. He could have 
rejected them, or, as it turned out, he looked at them and 
accepted them, but there was no such, you know, belly button 
identified within the Department of Homeland Security, which, 
of course, didn't exist at the time, and so it was hard to find 
anybody who owned the problem.
    There indeed was an assistant for infrastructure 
protection. In fact, I believe I recall going in with Dr. 
Graham and briefing him, or perhaps General Lawson, and--but 
nevertheless, you know, kind-of the ripples died out, and there 
is no detectable resonance these days.
    Mr. Franks. Well, the military seems to get it. I mean, it 
doesn't seem to be a fact--I have heard, in the very highest 
echelons of our military command in the United States, them 
deem this or term this cybersecurity and EMP as kissing cousins 
because they affect the same networks, and because in a sense 
EMP is like an ultimate cybersecurity threat because if you 
have no electricity, you have no networks.
    But with that said, NERC is currently undergoing a 
rulemaking procedure to look at protecting the grid from GMD, 
not so much EMP yet, and from my vantage point it appears that 
they may be using some faulty science or data that justify 
inadequate standards that, in my judgment, don't go far enough. 
It also appears that the standard may include only procedural 
and operational changes, and it leaves, in my judgment, our 
citizens at risk.
    It appears to me that hardware-based solutions eliminate, 
to a large extent, the worst of the most catastrophic element 
that might happen here. Can you tell me and this committee the 
importance of using hardware-based solutions versus just 
procedural methods to protect just against vulnerabilities? I 
would like to start over here with Dr. Pry and go through the 
group here, because I may not have another opportunity.
    Mr. Pry. Before answering that question, I would like to 
add that, you know, the Critical Infrastructure Protection Act 
is provisioned to establish a scenario focused on EMP. A 
National planning scenario on EMP was one of the core 
recommendations of the EMP Commission, so that legislation 
would be realizing this long-delayed goal of the Commission.
    A hardware-based solution to this is absolutely necessary. 
Operational procedures alone are not going to work against 
either a geomagnetic disturbance or--and certainly not against 
a nuclear EMP attack. The United States--well, not the United 
States, NERC, but the NERC, the North American Electric 
Reliability Corporation, has been resisting that and trying to 
argue that operational procedures would be sufficient for 
dealing with a geomagnetic storm, a Carrington-class 
geomagnetic storm, and frankly it has been junk science.
    I know this and can say this because I have been on their 
Geomagnetic Disturbance Task Force, and other members of my 
task force are still on the NERC Geomagnetic Disturbance Task 
Force. They can't keep us off it. Under the law they have to 
allow outside independent observers, and we have been able to 
watch that process and see the junk science process in action 
where they basically cook the books to try to convince people 
that operational procedures will suffice.
    The most notorious example of this was the NERC's 2012 
report that asserted that if a Carrington-class geomagnetic 
superstorm happened today, that they would be able to recover 
the grid in 24 hours, and then weeks after they delivered that 
report, we had a weather event sweep through Washington, DC, 
that caused a black-out of large parts of the area that lasted 
more than a week, you know, which showed that they can't even 
cope using operational procedures with normal terrestrial 
weather, let alone an unprecedented thing like a Carrington 
Event.
    Moreover, our closest NATO allies in the United Kingdom, 
who are also very concerned about this, within a few weeks of 
the NERC 2012 report coming out put out their own report that 
also assessed that they had to harden their grid because 
operational procedures alone wouldn't be sufficient to protect 
against either a natural or nuclear EMP.
    You know, NERC stands alone in this belief among all the 
studies that have been done by the U.S. Government and even by 
our allies that operational procedures will suffice, and, you 
know, I think we are just seeing the same old story again where 
industry will do whatever it can to resist having to spend the 
money on the hardware, just like the cigarette industry, just 
like I like to think of the zeppelin industry in the 1920s that 
convinced everybody, you know, that travel by hydrogen balloon 
was safe, that they could use operational procedures to make 
zeppelin travel safe even though helium was available and it 
would cost a little more to use it, and in effect NERC has got 
us all on the Hindenburg, and we are flying toward a rendezvous 
with a geomagnetic catastrophe in the future.
    Mr. Franks. Thank you, Mr. Chairman. I don't know if the 
others had any response. I know I am certainly out of time. 
Yield back.
    Mr. Perry. If you ask the question, the others can respond.
    Mr. Frankel. I concur with Dr. Pry that hardware solutions 
are, indeed, called for. I am not as familiar with the specific 
studies that he is referring to, but it is my impression that 
we have a problem of overfamiliarity, if you will, for the 
NERC. This is a well-known physics phenomenon, the inducing of 
these currents by these geomagnetic storms, and the power 
industry has known about this pretty much forever. They have 
procedures and things in place to prevent that sort of thing, 
and I think they are just a tad too comfortable with their 
ability to deal with this thing, and the thing that we are now 
talking about is the possibility that will be of an intensity 
that they simply have not prepared for. Yes, it is low 
frequency, but it is very high probability--I think I said 100 
percent before--that it will happen at some point, scale it on 
the 100-year scale. I think they are not willing to go that--
like, yes, they know about geomagnetic storms; yes, they have 
indeed protected against geomagnetic storms, but they haven't 
really taken that final step to protect against the kind of the 
super-Katrina kind-of analogue, and I feel that is what we are 
faced with here.
    Mr. Beck. I would just comment that FERC Order 779 is a 
two-phase approach where the first phase was operational 
measures, and the second phase had to do with the more detailed 
analysis up to and including hardware-based solutions. The 
trade-off is one basically of complication and ability to 
respond in a timely manner.
    Operational procedures may be effective in a manageable-
sized geomagnetic disturbance when there is decent warning, 
which may be available if the storm is slow moving. For massive 
solar storms, typically the velocity is higher; the warning 
time is less. This would really put stress on the operators as 
they tried to go through those procedures. But it was a place 
to start because it could be done immediately where there needs 
to be more analysis and understanding of some of the hardware-
based solutions.
    But ultimately a mixture would probably be best, and 
certainly if you include EMP, where warning time would be zero, 
then operational procedures would be unbelievably challenging 
for the operators to be able to deal with an EMP event using 
operational procedures alone.
    Mr. Perry. The Chairman thanks the gentlemen.
    We are going to, without objection, move to the second 
round. I would like to start with Dr. Pry.
    You mentioned in your testimony a satellite passing over 
the Washington-New York corridor. I would like you to describe 
the importance or the potential importance of that, and in that 
context also please describe the National electric grid 
interconnection, what regions of the country are most 
vulnerable to grid collapse as a result of EMP attack.
    Mr. Pry. Well, the KSM-3 satellite was orbited by North 
Korea in December 2012, about 3 months before we had our 
gravest nuclear crisis with North Korea when in February 2012 
they ignited--they conducted their third nuclear test, 
violating international law, and when the United States 
international community moved to impose additional sanctions to 
punish North Korea for this, they started threatening to make 
nuclear strikes against the United States. There was a nuclear 
crisis so grave during the period from February 12 through the 
end of April that, you know, the President was sending B-2 
bombers over the demilitarized zone to do practice bombing runs 
and demonstration exercises; strengthened the National missile 
defense, including moving a THAAD interceptor to Guam just in 
case Kim Jong-Un tried to deliver on these nuclear threats.
    In the midst of this crisis, the KSM-3, which was still 
orbiting, its orbit followed the exact orbit that the Soviets 
had come up with in the Cold War for a secret nuclear weapon to 
conduct a surprise nuclear attack called a fractional orbital 
bombardment system. It is basically a space launch vehicle that 
uses a nuclear weapon disguised as a satellite, and instead of 
launching over the North Pole and following a normal ballistic 
trajectory toward the United States, it launches south and 
crosses over the south polar region and comes up from--
approaches from the south because we don't have any ballistic 
missile early warning radars in that location or interceptors, 
and we are blind to the south and defenseless, and so you would 
be able to detonate a warhead and do an EMP attack and catch us 
by surprise. That was the plan during the Cold War, and the 
trajectory and the altitude of this satellite were precisely 
the same as the kinds of fobs that the Soviets had used.
    Between April 8 and the 16th of April, it went from the 
center of the United States, and on the 16th was passing over 
the Washington, DC/New York corridor, which is the ideal 
location for putting down a peak field, because if you look at 
where our EHV transformers are located, they are most deeply 
located, the largest numbers of them, the map is just almost a 
solid block of red because it is so densely concentrated, the 
EHV transformers in that area. If you wanted to take down the 
eastern grid, that would be the best place to place a peak EMP 
field. Taking out the eastern grid is really all you have to do 
because 75 percent of our power is generated in the eastern 
grid. The western grid is the next most important, and the 
Texas grid is the third most important. But that was the KSM-3 
threat and its relationship to the grid system.
    Mr. Perry. Thank you.
    Speaking of those, the transformers, it has been noted that 
the Extremely High-Voltage, the EHV transformers which are 
indispensable to the electric grid, are expensive and hard to 
replace. If you know, what is the lead time for manufacturing 
new or replacement transformers, and given that there are 
limited manufacturers in the United States, where are the 
suppliers located?
    Mr. Pry. There are two places that manufacture these for 
export, South Korea and Germany, and we are still dependent on 
them. I know there is a DHS briefing going around that says we 
have limited capabilities to manufacture EHV transformers in 
the United States. In fact, we currently don't really have 
demonstrated capability to manufacture these transformers in 
the United States yet. They have to be made by hand the way 
they were made back in Nikola Tesla's day, the inventor of the 
EHV transformer.
    So every one is custom made, every one has a unique role to 
play in the grid. They aren't mass produced. It is not easy. 
There is a lot of--they have to be custom made, and there is a 
lot of artisanship, as it were, that goes into the making of 
these transformers. Brazil tried to become independent of 
making its own EHV transformers, oh, maybe a decade ago, and it 
took them 5 years before they were able to start attempting to 
make their first transformers, and they didn't perform well. So 
now Brazil gave up on that, and it has to import them.
    So it remains to be seen if the United States can actually 
manufacture any of its own EHV transformers yet. We haven't 
manufactured one and put them out in the field and seen if they 
last and stand up to this. It takes 18 months under normal 
conditions to build one of these transformers.
    Mr. Perry. Has the United States ever manufactured them, or 
is it something that we did and then got out of?
    Mr. Pry. We did. We invented them. We invented all of the 
technology that goes into the electric grid, you know, back 
near the turn of the century. Nikola Tesla. The first electric 
grid in the world was up near Niagara Falls, the first 
hydroelectric station, and the thing that makes the grid 
possible, the cornerstone of our modern civilization, is the 
EHV transformer invented by Nikola Tesla because it makes it 
possible to take power from a place like Niagara Falls and 
project it long distances, down to New York City, for example. 
Then there is another transformer at the end of the line that 
steps it down so it can be used locally. But like so many 
things that we invented and we used to manufacture and exported 
to the world, we don't make it here anymore.
    Mr. Perry. The Chairman's time has expired.
    Recognize the Ranking Member.
    Ms. Clarke. Thank you, Mr. Chairman.
    I just wanted to add to the DHS question that I had raised 
earlier that one of the observations of the Sandy event was the 
unintended consequence of the grid going--the electricity going 
out was that people forgot that fuel stations are run through--
by electricity, and so we ended up having a fuel crisis at the 
same time.
    So there is sort of a collateral damage piece to this that 
I hope is acknowledged as we go through this discussion about 
what happens in areas when just in a short period of time 
electrical shortages occur or the grid goes out, because even 
if you were trying to move physical assets, if you don't 
prepare for things like fuel stations that are run by 
electricity, you will have a massive issue.
    Dr. Beck, I wanted to talk about the international nature 
of what we are talking about here, because your report speaks 
to that, and I know in your London conference on grid security 
last year, there were representatives from business and 
industry in addition to governments. Could you describe the 
conversations and discussions about how the insurance industry 
is viewing EMP and geomagnetic disturbances in the electric 
industry?
    Mr. Beck. Yes. The past Washington summit was a first 
meeting of what we called the three-sector roundtable, which 
was the electric power sector, Government, and the insurance 
industry representatives, that met to try to talk through some 
of these issues about how they might be addressed.
    The insurance sector has long been the sector with the most 
expertise on risk analysis, which is basically what they do and 
how they develop their products. It is difficult in occurrences 
like this where the typical traditional risk analysis method is 
to use an actuarial method where you have a large database of 
previous events, and you can look at probabilities over time. 
It becomes much more difficult to do that when you have events 
like a large geomagnetic storm that don't occur very often and 
haven't--very large storms have not occurred during the time 
that we have had a ubiquitous and electric grid.
    So that is a challenge, but it is--and those discussions 
are on-going. It is a difficult question to address, but it is 
very encouraging that those discussions have begun, and that 
they are getting input from the electric power sector, from 
governments. It is a way perhaps beyond or in addition to a 
regulatory approach that could incentivize the industry. It 
could provide a business case or a cost mechanism, as the 
insurance industry has done in other industries, for example 
with fire codes. Fire insurance, you can get a better deal on 
your fire insurance if you have a sprinkler system. Well, 
perhaps an electric utility could get a better deal on their 
insurance, have they done engineering analysis on their system 
on what their GMD vulnerability is, for example.
    As I said, those are on-going discussions that are in their 
early stages, and so I don't have any specifics on. There 
aren't recommendations yet, but that kind of approach where you 
have the insurance sector playing a role and paying attention 
to this--you know, this threat is, I think, a very encouraging 
sign.
    Ms. Clarke. How do you plan to propose international 
standards if there are so many different individualized systems 
that need specialized mitigation? I mean, just another case in 
point, when there was a major Northeast corridor blackout, and 
it originated actually in Canada and then came all the way down 
and took out New York City, you know. How do we look at the 
differences and come up with the specialized mitigation?
    Mr. Beck. Good question. Basically, so first of all, you 
are absolutely right, the report that you mentioned earlier, 
EIS Council did a survey of 11 countries, their different 
experiences with geomagnetic disturbances principally, but also 
EMP, and their different approaches, which were a mixture of 
hardware and procedural approaches, and from that I would say 
you are correct that each country has a unique grid, but there 
are lots of similarities in that the physics of electric 
transmission generation is the same. So you have transformers, 
you have generators, you have transmission assets, you have 
generation assets, and you have loads.
    Those are the same everywhere, so while any specific 
mitigation method--for example, Finland has a very robust grid, 
and they don't really use operational procedures; they are all 
hardware-based. So they have very tough transformers. They 
compensate their long transmission lines with series capacitors 
which have an ancillary benefit of blocking currents. They use 
special reactors to ground that have a resistance that dampen 
currents that come in. So they have a very robust system based 
on hardware solutions.
    Another example of that is New Zealand that uses grounding 
resistors to protect some of their transformers. Other 
countries, including the United Kingdom, a mixture of some of 
the other Scandinavian countries use a more blended approach of 
procedural and hardware solutions.
    So I wouldn't say--I think standards are excellent in--for 
example, used by the International Electrotechnical Commission 
or the IEEE that put out recommended standards for certain 
types of performance and parameters through--under which these 
components should operate safely, and that gives the industry 
something to guide on. But it is, I think, more of a question 
of information sharing so that there is a suite of options out 
there that are tested and peer reviewed that can then be used 
by the industry or by governments, et cetera, to address the 
problem.
    Ms. Clarke. Thank you, Mr. Chairman. I yield back.
    Mr. Perry. The Chairman thanks the gentlelady.
    The Chairman recognizes Representative Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. Thank you for 
your forbearance and just the privilege you have given me to be 
on the dais here today.
    I just have two remaining questions really, and, Dr. Pry, 
just a quick response here. I know a lot of us as we consider 
this issue, we realize that if indeed we did lose our grid, in 
a worst-case scenario, and we are not projecting a worst-case 
scenario, but if it did happen, really the aftermath where 
society would begin to tear ourselves apart seems to be the 
most frightening aspect of it to me. So the cost of doing 
nothing is significantly high, and I think you have 
demonstrated that well, but could you give us a sense of how 
expensive it would be to harden our bulk power system enough to 
recover from a major event; in other words, where we keep our 
main components intact, and we can bring our grid back on-line? 
I have been told that a couple, $3 billion over 5 years might 
do it, and that might be less than $1 per year per ratepayer. 
Am I accurately expressing that?
    Mr. Pry. Yes. In fact, your estimate is high compared to 
the Congressional EMP Commission's estimate, which was that it 
would cost about $2 billion over 3 to 5 years to harden the 
bulk power system, and $10-20 billion over that same period, 
you know, would protect all of the critical infrastructures.
    The U.S. Federal Energy Regulatory Commission put out an 
estimate in 2010, in its 2010 report, that it could be paid for 
by--it would increase the rate, the average ratepayer's 
electric bill. Your annual electric bill would be increased by 
20 cents annually amortized over a period of years, so you 
would hardly even feel the pain, you know, that way.
    It is not necessary--in addition to the cost of hardening 
the country, perhaps we should also keep in mind the cost to 
States, because while the preferred solution, of course, is to 
do this Nationally, the Commission noted that it is possible 
for a State to island its grid, and some States are planning to 
do exactly that because they are so frustrated that Washington 
has not taken any steps since 2008 and the Commission delivery 
of its report.
    As I said last year, it has only taken a year for Maine to 
pass a bill. Virginia did so earlier this year, and Florida is 
working on passing the bill now to island its State, you know, 
in a State grid. I think that this is a germane example. North 
Carolina is interested in islanding its grid, and they are 
considering legislation as well. It would probably--it would 
cost something like $5-10 million to harden the whole State of 
North Carolina, which is less than what we are spending on a 
program in the Department of Defense called SPIDERS, which is 
spending $30 million to----
    Mr. Franks. You said $5-10 million, correct?
    Mr. Pry. Five to ten million dollars for the State of North 
Carolina, which has six military bases in it, okay? The SPIDERS 
program from the Department of Defense is spending $30 million 
to provide energy security for just three military bases.
    Mr. Franks. Well, that was the main point I was making was 
that, you know, when we were in Israel, some of us--in fact, 
some of you on the panel and I were in Israel about a year-and-
a-half ago; I just returned from Israel. They--to use their 
terminology, they consider this a very attractive problem--and 
this is just to show you how the Israelis deal with these 
things--they said, because it represents something that is very 
dangerous, but very, very--something that can be addressed with 
reasonable cost.
    Mr. Pry. Yes.
    Mr. Franks. So they are moving forward in a very 
significant way.
    My last question, Mr. Chairman, it goes to all of them, and 
I will start down here with you, Mr. Beck. At present it is not 
really clear who is in charge of protecting the Nation against 
solar and nuclear EMP or IEMI. Would you be in favor of DHS 
taking the role? If not, who should do it? If you can each 
articulate briefly who you think should take the lead on this, 
what do you think really this represents to America in terms of 
threat and danger, how serious is it, what keeps you up, and 
what is the next step?
    Mr. Beck. Thank you. You saved the easy question for last, 
which is nice.
    Well, the U.S. electric grid is the most complicated in the 
world both by physical design; by the overlapping regulatory 
authority, 50 States, a Federal Government, 3,500 electric 
companies, et cetera.
    When we did the international study, it was pretty easy, 
and one of the things where lessons learned was easy was 
because you could look at Finland, which has one company and 
one regulator, right? So a much easier thing to deal with. Here 
it is--that does make it very difficult, and so I have to--in 
all honesty, and not to try to duck the question, but the 
answer is somewhat complicated because there are all these 
agencies, and there isn't just one agency that is in charge.
    So I do think it makes sense, especially in the discussion 
that we are having before this committee, that DHS plays a 
major role because of, I think, the vast utility in addressing 
this issue through infrastructure protection. We talked about 
DOD can't do it, it is not--at least certainly the solar 
threat, there is no deterrence possible, et cetera. So leading 
from an infrastructure protection standpoint is very important, 
and then the structures then that flow from that where you have 
the Department of Energy and Federal Energy Regulatory 
Commission as the sector-specific agencies, that can make 
sense, but it certainly has to be done in coordination with the 
State-level governments as well.
    Mr. Frankel. Yes, certainly the Department of Homeland 
Security, I think, has the primary responsibility, but we 
should also not forget the Department of Energy. They have 
offices of energy assurance, and they should also be playing 
some role. Right now I don't discern exactly what it is, but 
somewhere between those two, with DHS in the primary role, I 
think that is where you look for leadership.
    I want to at least mention the Department of Defense not in 
a leadership role in this instance, but they are doing a lot of 
relevant work developing hardening techniques. Worried about 
their own networks and things of that sort, but they have very 
important technology support to contribute to that sort of 
thing. But in the end it is not their responsibility, and it is 
not their mission, and they are not going to do it. You need to 
look at those two Departments for leadership.
    Mr. Pry. I agree with what has been said. The Department of 
Homeland Security, especially when you are looking at the role 
from the Critical Infrastructure Protection Act for planning, 
training, and resource allocation for emergency planners and 
responders--under the Department of Homeland Security, within 
the Department of Homeland Security, the logical regulatory 
authority to work most closely over the electric grid should be 
the U.S. Federal Energy Regulatory Commission, the U.S. FERC, 
and this would be addressed by the SHIELD Act that Mr. Franks 
is sponsoring in front of the House Energy and Commerce 
Committee.
    I think this is really like the--almost equally important 
with the Critical Infrastructure Protection Act in terms of its 
passage, because the reality and the reason we have this 
problem is because the electric power industry exists in a 19th 
Century regulatory environment. I mean, there is no Federal 
agency that has the kind of regulatory authority relative to 
the electric power industry that, for example, the Federal 
Aviation Administration has over the airline industry, you 
know. I think all Americans and even Tea Party Republicans 
would agree that, you know, we need an FAA so you have 
independent inspectors who will go out and see, you know, is 
there metal fatigue in the wings of this aircraft, and when 
that airplane can't fly, and that if an airplane crashes, you 
have an FAA to inspect the crash and find out what happened so 
that it never happens again. We do this because hundreds of 
lives are at stake, and we need to maintain the public safety. 
That is why we have an FAA.
    But the U.S. FERC doesn't have that power. It can ask the 
NERC, which represents the industry, and previously was a trade 
association, by the way, and unofficially is a lobby for the 
electric power industry, and NERC is the one that is in charge. 
They regulate themselves through the NERC. The FERC can ask 
them to come up with a plan.
    I mean, here is a great example is the great 2003 Northeast 
blackout was caused by a falling tree branch that caused 
cascading--it took them 10 years for NERC to come up with a 
plan, vegetation management plan. So not just--you know, cyber 
5 years; they were asked for a plan some 5 years before they 
started moving on that.
    So U.S. FERC, I say, would be the tip of the spear for 
dealing with the electric power industry.
    Mr. Franks. Mr. Chairman, thank you so very much for your 
forbearance, and thank you for the opportunity here today, and 
thank all of you.
    Mr. Perry. Ladies and gentlemen, votes have been called. I 
want to thank the witnesses for their valuable testimony and 
the Members for their questions. The Members of the committee 
may have some additional questions, and if they do, we ask that 
you submit them in writing and so there can be responses.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
